Memorandum from the Inspector General, ET 4C-K



May 15, 2009

Tom D. Kilgore, WT 7B-K

FINAL REPORT – INSPECTION REPORT 2008-12003 – REVIEW OF MAINTAIN AND
GAIN LAKESHORE MANAGEMENT PROGRAM



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise
use of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact me at (865) 633-7300. We appreciate the
courtesy and cooperation received from your staff during the audit.




Richard W. Moore

Attachment
cc (Attachment):
     Director Robert M. Duncan
     Director Thomas C. Gilliland
     Director Howard A. Thrailkill
     Maureen H. Dunn, WT 6A-K
     Peyton T. Hairston, Jr., WT 7B-K
     John E. Long, Jr., WT 7B-K
     Anda A. Ray, WT 11A-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2008-12003
            Tennessee Valley Authority
            Office of the Inspector General


Inspection Report



MAINTAIN AND
GAIN LAKESHORE
MANAGEMENT
PROGRAM


                                 2008-12003
                                May 15, 2009
Office of the Inspector General                                                                               Inspection Report



TABLE OF CONTENTS
INTRODUCTION ................................................................................................................... 1

METHODOLOGY .................................................................................................................. 2

BACKGROUND ..................................................................................................................... 4

FACTUAL OVERVIEW ....................................................................................................... 9
    MAINTAIN AND GAIN TRANSACTIONS

         CHAPTER ONE – THE COVE AT BLACKBERRY RIDGE, LLC, TRANSACTION ........ 10
         CHAPTER TWO – THE CHARLES PERRY TRANSACTION ........................................ 25
         CHAPTER THREE –THE WILLIAM (“BILL”) SANSOM TRANSACTION ....................... 34
         CHAPTER FOUR – EXCEPTIONS THAT ATE THE RULE............................................ 34

CONCLUSIONS
    1. CERTAIN ACTIONS BY TVA AND OTHERS CREATED AN
       APPEARANCE OF PREFERENTIAL TREATMENT THEREBY
       INCREASING TVA’S REPUTATIONAL RISK. ......................................................... 46

    2. TVA DID NOT HAVE A CLEARLY DEFINED PROTOCOL TO
       ADDRESS THE KNOWN CONFLICTS OF INTEREST
       BY SHULER AND PERRY .......................................................................................... 50

    3. THE MAINTAIN AND GAIN PROGRAM HAS BEEN
       ADMINISTERED IN AN ARBITRARY MANNER AND NEEDS
       SUBSTANTIAL IMPROVEMENTS............................................................................. 52

    4. TVA’S FAILURE TO RETAIN DOCUMENTATION FOR
       APPLICATIONS WHICH ARE WITHDRAWN OR REJECTED
       CREATES DOUBT ABOUT THE FAIRNESS OF THE MAINTAIN
       AND GAIN PROCESS ................................................................................................. 56

    5. THE MAINTAIN AND GAIN PROGRAM MAY UNDERMINE
       THE INTENT OF THE TVA BOARD’S 2006 LAND POLICY.................................. 56

RECOMMENDATIONS .................................................................................................... 57




Inspection 2008-12003
Office of the Inspector General                       Inspection Report



APPENDICES

A. LETTER DATED AUGUST 30, 2005, FROM NANCY R. GREER TO
   DENNIS TUMLIN

B. MEMORANDUM DATED APRIL 26, 2006, FROM ROBERT F.
   WORTHINGTON, JR., TO BLACKBERRY COVE, LLC

C. E-MAIL DATED AUGUST 22, 2007, FROM MICHAEL J. DOBROGOSZ
   TO REBECCA CHUNN TOLENE AND PEYTON T. HAIRSTON, JR.

D. LETTER DATED AUGUST 23, 2007, FROM JASON RUDD TO
   TOM KILGORE

E. E-MAIL DATED OCTOBER 16, 2007, FROM ROBERT A. MORRIS TO
   EMILY J. REYNOLDS AND PEYTON T. HAIRSTON, JR.

F. E-MAIL DATED OCTOBER 26, 2007, FROM BUFF L. CROSBY TO
   BRIDGETTE K. ELLIS AND ANDA ANDREWS RAY

G. E-MAIL DATED OCTOBER 29, 2007, FROM BUFF L. CROSBY TO
   ANDA ANDREWS RAY

H. LETTER DATED MARCH 10, 2004, FROM DON W. ALLSBROOKS TO
   CHARLES PERRY

I. ISSUE BRIEFING PAPER – JUSTIFICATION FOR SEQUENTIAL
   APPROVAL DATED MARCH 21, 2005

J. MEMORANDUM FROM TOM KILGORE TO ELLEN ROBINSON

K. RS GUIDELINES – 16.5.4.52 BOARD ACTION CHECKLIST

L. MEMORANDUM DATED MAY 14, 2009, FROM TOM KILGORE TO
   RICHARD W. MOORE




Inspection 2008-12003
Office of the Inspector General                                              Inspection Report



                                   INTRODUCTION
The Office of the Inspector General (OIG) conducted a review of Tennessee Valley
Authority’s (TVA) Maintain and Gain (hereinafter referred to as “Maintain and Gain”)
lakeshore management program. This program is one element under TVA’s Shoreline
Management Policy (SMP) that seeks to better protect shoreline and aquatic resources
and allow reasonable access while maintaining the quality of life of the reservoir system.
This policy restricts residential access rights to about 38 percent of available shoreline
while protecting 62 percent. The Maintain and Gain program is designed to allow
consideration of proposals to obtain lake access rights at the landowner’s property by
swapping access rights already available at other properties the landowner may
possess. The policy, as written, requires that transactions would result in no net loss, or
preferably, a net gain of public shoreline.

This review was initiated after numerous newspaper articles reported in August of 2008
on a TVA Maintain and Gain transaction involving an entity called The Cove at
Blackberry Ridge, LLC (Blackberry). The articles focused on the fact that United States
Congressman Heath Shuler of North Carolina was a primary investor in Blackberry
while serving on the House Transportation Committee’s Subcommittee on Water
Resources and the Environment, one of two congressional panels that provide formal
oversight of TVA. The articles also raised questions about whether Shuler used his
position to influence TVA’s decision to grant Blackberry’s request for water access.
Because doubt was cast on the fairness of a TVA process, the OIG announced publicly
at the time the newspaper articles appeared that a review would be conducted.

Our original expectation that this review could be completed within a matter of weeks
was based on the premise that the scope of the review would be confined to the
Blackberry Cove transaction and that the OIG would be able to access internal TVA
documents quickly. Our completion of this project was delayed primarily by our
determination that a full review of all Maintain and Gain transactions was required in
order to present a complete assessment of the program.

This review was also delayed by our separate but companion reports that required
substantial resources and investigation. One report has to do with personnel issues
involving TVA employees connected to this case. That report is being submitted to TVA
officials for their review. The second report contains matters that are being referred to
the House Ethics Committee. The TVA OIG has no jurisdiction over the conduct of a
United States Congressman and we make no judgment as to whether Congressman
Shuler’s actions connected to the Blackberry Cove matter violate any existing ethical
standard.




Inspection 2008-12003                                                                  Page 1
Office of the Inspector General                                             Inspection Report



TVA management agreed with the report and plans to take action in regards to the
recommendations. Additionally, the Audit, Governance, and Ethics Committee of the
TVA Board is developing a protocol which is expected to be approved by the full TVA
Board, which fully addresses the identification of conflicts of interest and the
appearance of the exertion of undue influence over TVA matters. The TVA Board, and
particularly the Audit, Governance, and Ethics Committee, has been fully supportive of
this OIG review, and they have moved decisively to correct the problems we identify in
this report.

                                  METHODOLOGY
This review was conducted to determine whether: (1) TVA gave anyone preferential
treatment in the review and approval of Maintain and Gain transactions; and (2) the
policies and procedures related to the design and execution of the Maintain and Gain
process were adequate. The OIG review primarily focused on the events surrounding
the approval of the transaction for Blackberry. We also included a more limited review
of additional transactions that had the potential for preferential treatment.
Documentation related to all eight Maintain and Gain transactions completed was
reviewed to evaluate whether TVA complied with the guidelines for processing Maintain
and Gain requests.

While the impetus for the review was the media attention given the Blackberry Maintain
and Gain application, it was quickly surmised that justice could not be done to this topic
without expanding the review to include all the Maintain and Gain transactions approved
by TVA since the inception of the program in 1999.

In conducting this review, the OIG completed 94 interviews of witnesses and examined
hundreds of documents. This delayed the completion of this inspection report beyond
the original estimate but has resulted in a much more definitive and comprehensive
review.

During the course of the inspection, TVA employees at all levels of the agency were
interviewed to gain an understanding of the process and the actions taken by TVA for
specific transactions completed. Among the TVA employees interviewed were
Tom Kilgore, President and Chief Executive Officer (CEO); Peyton Hairston, Senior
Vice President, Corporate Responsibility and Diversity; Anda Ray, Senior Vice
President, Office of the Environment and Research; Buff Crosby, Senior Advisor to the
Senior Vice President, Office of the Environment and Research; and Bridgette Ellis,
former Vice President, Land and Water Stewardship. Managers and members of the
following TVA Watershed Teams were interviewed, as necessary, --Hiwassee,
Guntersville--Tims Ford, Holston--Cherokee--Douglas, Kentucky, Little Tennessee,
Pickwick--Wheeler, and Watts Bar--Clinch. Also interviewed, as warranted, were
selected Maintain and Gain applicants and other relevant individuals.
The OIG also interviewed United States Congressman Heath Shuler, Hayden Rogers
(Shuler’s chief of staff), Charles Perry, TVA Board Chairman Bill Sansom, and former
TVA Chairman Bill Baxter.


Inspection 2008-12003                                                                 Page 2
Office of the Inspector General                                             Inspection Report



Additionally, the following evaluation steps were performed:

• Reviewed relevant policies and procedures related to the Maintain and Gain
  program to gain an understanding of the overall program requirements.
• Visited the relevant watershed team locations to review the files for eight Maintain
  and Gain transactions completed since the inception of the program in 1999.
• Performed a Maintain and Gain file review using compliance checklists developed
  from the stated program requirements.
• Conducted follow-up interviews as needed to ensure a complete understanding on
  the actions taken by TVA.
• Made additional inquiries as needed to document justifications for instance when
  policies or procedures were not followed.
• Hired a real estate appraiser to provide an expert opinion as to the validity of TVA’s
  Comparative Market Analysis for the Blackberry transaction.

Key Maintain and Gain process steps that we tested for compliance included whether
there was evidence of:

• A completed Land Use Application.
• Payment of the required $5,000 fee.
• A completed worksheet documenting the Watershed Team’s opinion of the
  transaction’s public benefit.
• Coordination with U.S. Fish and Wildlife Service and state wildlife or natural
  resources agency.
• Management team review of the transaction to determine if the proposal is in the
  public’s interest from a Valley-wide perspective.
• Public notification.
• Environmental review.
• An appraisal.

This review was conducted in accordance with the Quality Standards for Inspections.




Inspection 2008-12003                                                                 Page 3
Office of the Inspector General                                                                        Inspection Report



                                                BACKGROUND

MAINTAIN AND GAIN PROGRAM

On April 21, 1999, the TVA Board of Directors implemented an SMP which took effect
on November 1, 1999. Through the SMP, TVA seeks to allow reasonable public access
for residents along the shoreline while simultaneously maintaining the quality of life of
the reservoir system.1 As a part of this goal, TVA developed a strategy to "maintain and
potentially gain" public reservoir shoreline property (i.e., at summer pool shoreline
levels) while limiting the amount of residential access to the existing residential access
rights (i.e., about 38 percent of the 11,000 miles of shoreline in the Valley). There are
four methods whereby water access rights are acquired, and one of these methods is
the execution of a Maintain and Gain transaction.2 In Maintain and Gain transactions,
water access rights on one piece of land are exchanged for water access rights on
another piece of land.

Maintain and Gain transactions apply only to water access rights and not to the
exchange of land or property. The Land Policy which was approved by the Board of
Directors in 2006 restricts the exchange of land on TVA reservoirs and also allows for
changing land use designations to implement the SMP.

Environmental Stewardship and Policy (ES&P) has issued guidance on Maintain and
Gain transactions. ES&P Guideline 16.52.11.1, Reservoir Shoreline Maintain and Gain
Information, states:

•     TVA may exchange access rights as long as it results in either (1) no net loss or
      (2) a gain of public shoreline.

•     An individual(s) must first have an ownership of or a fee interest in currently
      undeveloped shoreline. They may then propose an exchange which addresses how
      the exchange will maintain or improve environmental and public values by assessing
      the resources for both properties. Resources to be considered include:




1
    The 1999 SMP was derived from a TVA Shoreline Management Initiative (SMI) which assessed TVA’s existing
    reservoir residential shoreline permitting practices with an objective of establishing a policy that better protected
    shoreline and aquatic resources, allowed reasonable access to the water for adjacent residents, and improved
    management of public land along the shoreline.
2
    The other three methods whereby water access rights are acquired include: (1) the obtainment of flowage
    easement property where there are reservoir boundaries, but it is not TVA land; (2) the acquisition of land approved
    in the Land Management Plan as having water access; and (3) the acquisition of land that has deeded access
    rights which can be either (a) general rights to ingress and egress or (b) implied rights which only states there is
    water access.


Inspection 2008-12003                                                                                            Page 4
Office of the Inspector General                                                                    Inspection Report



         Wetlands.
         Archeology.
         Habitats for protected species.
         Scenic qualities.
         Shoreline characteristics.
         Existing vegetation.
         Water quality.

•     TVA will consider the qualities of both properties and the benefits of the exchange.
      If TVA determines that the exchange will result in equal or greater public benefits, it
      may be approved.

Other key points of the Maintain and Gain guidelines include: (1) proposals must
maintain or preferably gain public reservoir shoreline miles as calculated at the normal
summer pool level; (2) TVA will not exchange property in which it has a fee interest;
(3) exchanges must be on the same reservoir; and (4) proposals must be for TVA
property that is narrow in width, maximum 100 feet from summer pool shoreline to
backline.

ES&P Guideline 16.52.11.2, Instructions, along with 16.52.11.3, Maintain and Gain
Worksheet, provides steps and a worksheet for the watershed representatives to
complete when processing a Maintain and Gain transaction. Maintain and Gain
transactions are tracked in the Information System Integration Project (ISIP) (the new
Automated Land Information System) by ES&P.3 The transactions are entered into the
system after the application has been reviewed for completeness and feasibility by the
Watershed Team and the initial fee has been received. Maintain and Gain inquiries and
incomplete applications are not entered into the system nor is there a requirement to
maintain documentation. According to ES&P personnel, the time to complete a
Maintain and Gain transaction is more than a year. During this time, (1) the property is
reviewed for the impacts listed above and a public notification is made and
(2) management and Board/CEO approval is obtained.4

THE NINE APPLICATIONS GRANTED

Nine Maintain and Gain transactions have been approved since the program began in
1999; however, one was withdrawn before finalization and the Blackberry transaction
was approved but finalization had been suspended by the TVA Board pending the
review by the OIG (See Figure 1).




3
    ES&P has placed into service a new enhanced Automated Land Information System so data for Maintain and Gain
    transactions is housed in two different systems depending on the Maintain and Gain transaction timeframe.
4
    On May 18, 2006, the TVA Board of Directors delegated the authority to handle land transactions of five acres or
    less to the President and CEO.


Inspection 2008-12003                                                                                        Page 5
Office of the Inspector General                                                                         Inspection Report



Figure 1: Approved Maintain and Gain Transactions

        Applicant            Reservoir   Completed Land Use             Purpose of           Date of      Total Costs
                                         Request Application             Request            Approval       Billed by
                                            Found in the                                                     TVA
                                           Documentation
Stumac, Inc.              Chatuge              January-01           Development              June-02        $35,936.21

Riverbrook Shoreline      Fort Loudoun        November-01           14 Private docks       November-02      $19,187.00
Owners Association

Scott Roberts; Harold     Chickamauga    Not in the documentation   2 Dock                   July-03        $37,765.00
Daniels; Ken Herrick                              provided          encroachments and
                                                                    a new dock for three
                                                                    subdivision lot
                                                                    owners

Charles McLeroy           Watts Bar             8/10/2000           To remedy a dock        March-04        $22,500.00
                                                                    violation
William Sansom            Fort Loudoun          1/31/2006           New residential         March-04        $14,379.74
                                                                    dock
Charles Perry             Kentucky            6/24/2002 and         To remedy a              July-05        $27,711.77
                                             a letter 02/03/03      violation concerning
                                                                    a dock built in 2000

Chris Stevens; John       Melton Hill     Not dated but prior to    3 Residential docks     August-06       $11,948.00
Rankin; Marsha and                              8/25/05
Norman Sheldon
The Cove at Blackberry    Watts Bar       12/12/06 and revised      Community dock by         2008          $29,854.72
Ridge, LLC                                      5/1/2007            developer



SUMMARY CONCLUSIONS

Based upon an exhaustive review of the TVA Maintain and Gain program, the OIG has
determined that the Maintain and Gain process is administered in an arbitrary and
inconsistent manner that contributes, in some instances, to the appearance of
preferential treatment. While TVA asserts that the Maintain and Gain process is only a
guide and does not constitute any hard and fast rules, certain actions by TVA and by
others in processing these transactions created the appearance of preferential
treatment. Discussed below are summary conclusions that are found in more detail
later in this report.

                                             CONCLUSION 1

Certain actions by TVA employees and by others created the appearance of preferential
treatment and thereby increased TVA’s risk of reputational harm. TVA employees
working on the Maintain and Gain transactions held the applicants to certain standards
in an apparent good faith effort to not show partiality based on the status of the
applicants. However, the inconsistent treatment of the applicants resulted in actions
and decisions by TVA that give the appearance of preferential treatment.




Inspection 2008-12003                                                                                             Page 6
Office of the Inspector General                                               Inspection Report



                                  The Blackberry Transaction

Certain TVA employees contributed to the appearance of preferential treatment by:
(1) bypassing the standard committee review which was intended to provide another
layer of scrutiny; and (2) bringing in a high-level TVA executive as ombudsman to
negotiate with Blackberry representatives creating the impression with lower-level
employees that TVA executives wanted the Blackberry application granted.

Congressman Shuler contributed to the appearance of preferential treatment by
continuing to pursue water access for Blackberry while a part owner of Blackberry and
while sitting on a congressional committee with direct oversight of the very agency from
which Blackberry was seeking a permit for water access. The appearance of
preferential treatment was exacerbated by Shuler’s representatives dropping Shuler’s
name with TVA employees.

The OIG found no evidence, however, that either Shuler or his representatives used
Shuler’s position as a United States Congressman to pressure TVA to grant Blackberry
water access. We also note that TVA could have simply granted Blackberry water
access and exempted Blackberry from the Maintain and Gain process as they did with
others.

                                      The Perry Transaction

TVA employees contributed to the appearance of preferential treatment by: (1) failing to
give public notice of this transaction for fear of creating trouble for TVA; (2) approving a
lot-by-lot transaction which is not generally allowed by the Maintain and Gain program
within the Kentucky Reservoir system; (3) caving in to Perry after directing Perry to
remove his illegal dock; (4) circumventing legitimate public benefit concerns raised by
the Tennessee Wildlife Resources Agency (TWRA); and (5) preparing a document
entitled “Board Questions” for TVA staff to brief the TVA Board which included a
statement that, “TVA probably would not have considered this action were it not for his
[Perry’s] position as general manager of a TVA distributor.”

Perry contributed to the appearance of preferential treatment by: (1) building a dock in
defiance of TVA and then successfully opposing TVA’s efforts to have him tear the dock
down despite not complying with TVA rules, and (2) compounding the appearance
problem by attempting to involve elected officials in his quest for water access.

Charles Perry also had an inherent conflict of interest because of his position. He was a
manager of a TVA power distributor which potentially gave him undue influence over
TVA employees who were being asked to bestow something of financial value (water
access) on him.




Inspection 2008-12003                                                                   Page 7
Office of the Inspector General                                             Inspection Report



                                  Exceptions that Ate the Rule

In a separate class of cases, TVA created the appearance of preferential treatment by
granting water access rights outside of the Maintain and Gain program. These
exceptions essentially swallowed the TVA rule on how these cases were supposed to
be handled. Specifically, these transactions obtained access rights because (1) TVA
provided erroneous information to the landowner or (2) persistent appeals to the Board
and/or TVA management. These cases may have been decided correctly based on
their individual facts, but they were handled differently than similar cases. In two of
these cases, access was approved after TVA acknowledged that erroneous information
had been previously provided to the landowners.

                                      CONCLUSION 2

TVA did not have a protocol in the Maintain and Gain process to ensure a transparent
and independent review of applicants having known conflicts of interest. This problem
was exacerbated by TVA failing to maintain the appropriate documentation of applicants
to make a record of whom TVA was refusing and whom TVA was favoring. Although
aware that both Shuler and Perry had inherent conflicts of interest, TVA proceeded
blindly with a process that gave rise to the appearance of preferential treatment,
resulting in reputational harm both to the applicants and to TVA.

                                      CONCLUSION 3

The Maintain and Gain program has been administered in an arbitrary manner and
requires substantial improvement if it is to be retained by TVA. The Maintain and Gain
guidelines have been selectively and arbitrarily applied, with exceptions made for
applicants that resulted in (1) waiving public notice, (2) bypassing management review
committees, and (3) not coordinating with other agencies. In addition, no clear criterion
exists for the term “public benefit” resulting in it being whatever TVA employees want it
to be.

                                      CONCLUSION 4

TVA’s failure to retain records of who filed applications and why those applications were
rejected damages the integrity of the Maintain and Gain program. Many of the
applicants who were approved under this program appear to be wealthy, influential, or
both, giving rise to speculation that the process is fairer for some than others.




Inspection 2008-12003                                                                 Page 8
Office of the Inspector General                                                                     Inspection Report



                                                 CONCLUSION 5

The Maintain and Gain program may undermine the TVA Board’s 2006 Land Policy and
its apparent goal of restricting residential development on TVA shorelines. The Land
Policy specifically incorporates the Maintain and Gain process to allow Maintain and
Gain decisions to be made by management in carrying out the SMP. It is doubtful,
however, that the TVA Board anticipated the administration of the Maintain and Gain
program in a way that has permitted residential development that may not be consistent
with the intent of the Land Policy.


                                          FACTUAL OVERVIEW

As noted above, there have been nine approved Maintain and Gain transactions since
the inception of the program in 1999. This review focuses primarily on the events
involving the transaction with Blackberry since Congressman Heath Shuler has been a
primary investor and since he also serves on the House Transportation Committee’s
Subcommittee on Water Resources and the Environment,5 one of two panels that
provide formal oversight of TVA. In addition, also included is a more limited review of
two other Maintain and Gain transactions involving applicants whose status had the
potential for preferential treatment by TVA. Those two applicants were Charles Perry,
at that time a TVA power distributor manager, and William (“Bill”) Sansom, currently the
Chairman of the TVA Board of Directors. These transactions were reviewed both to
determine the effectiveness of the Maintain and Gain process as applied to them, as
well as to determine whether any preferential treatment was shown to them.

The OIG review unearthed additional transactions that include three requests for water
access that TVA approved because of (1) TVA providing erroneous information to the
landowners or (2) persistent appeals to the Board and/or TVA management. These
three transactions are: (1) [REDACTED], 2004; (2) [REDACTED], 2005; and
(3) [REDACTED], 2006. We discuss below the facts pertaining to each of the six
transactions we have examined.




5
    Congressman Shuler advised the OIG in his interview on February 27, 2009, that he is no longer a member of this
    committee.


Inspection 2008-12003                                                                                         Page 9
Office of the Inspector General                                              Inspection Report



                                     CHAPTER ONE


          THE COVE AT BLACKBERRY RIDGE, LLC, TRANSACTION
TVA Gave Blackberry Cove Developers Erroneous Information

In early February 2005, Bowater, Inc. (Bowater), a paper company, placed a large tract
of land for sale in Roane County, Tennessee. Bowater sold the land through the
Hiwassee Land Company. Dennis Tumlin and Bradley Varner, partners in a realty
venture called Tennessee Land Development, GP, learned the property was for sale.
Tumlin and Varner were familiar with Bowater land sales and knew Bowater took the
first offer for full price, making time of the essence. Tumlin, when interviewed, stated
that he began gathering information about the property on February 8, 2005. Tumlin
walked the tract before visiting the TVA Watershed office in Lenoir City, Tennessee, to
inquire whether the parcel had water access rights. At the Watershed office, Tumlin
received a map of TVA’s 1998 Watts Bar Land Plan (WBLP) which indicated the
Bowater parcel had water access rights. TVA employee Gary Chappelle, Land Use
Technician, looked at the map and confirmed the existence of water access rights.
However, Chappelle when interviewed pointed out there were federal mooring areas on
either side of the property, and it was unlikely a dock would be approved. Chappelle
suggested Tumlin submit a written request to TVA for a determination, but such a
request was never submitted.

Satisfied with the research, Tumlin and Varner faxed an offer to the Hiwassee Land
Company for the full price of $819,200. Tumlin and Varner were to pay $81,920 down
with the sale conditioned on favorable soil tests and a sufficient municipal water supply.
The offer was accepted.
According to Tumlin, on April 29, 2005, he and Varner signed a land sale contract with
Bowater. They paid $81,920 as a deposit. The remainder of the purchase price was to
be paid at closing.

Tumlin and Varner had no intention of developing the land themselves – only to sell it.
After Tumlin contacted several developers, Heath Shuler agreed to look at the property.
After looking at the property, Shuler proposed that Tumlin, Varner, and Danny Smith
(Shuler’s partner on other land developments) enter into partnership to develop the
parcel. Tumlin and Varner agreed. Consequently, Blackberry Cove, LLC, was formed
on May 12, 2005. Blackberry Cove later changed its name to The Cove at Blackberry
Ridge. (Shuler became a partner in the project before his election to Congress in
November of 2006.)




Inspection 2008-12003                                                                Page 10
Office of the Inspector General                                                       Inspection Report



On June 26, 2006, Blackberry’s appraiser called the TVA Watershed Team and asked
for written confirmation of water access rights for the Blackberry property. The next day
Tumlin also contacted the Watershed Team and stated that the lending institution
needed a letter stating the exact nature of the land rights. The TVA staff said they
would review the deed and prepare a letter. It was only when the TVA staff pulled the
deeds that they realized that the property that Shuler and his partners were buying did
not have water access rights.

The buyers were naturally upset. Tumlin and Varner had personally guaranteed money
and faced the possibility that their bank would not award the loan. According to Tumlin,
the bank, however, granted the loan because the land appraised at approximately
$1.4 million without water access which exceeded the amount of the proposed loan.
Blackberry closed on the property the next day, June 29, 2005.

TVA Acknowledged Providing Erroneous Information and Suggested Maintain
and Gain Application

In a letter dated July 25, 2005, Tumlin wrote Nancy Greer, Manager, Watts Bar-Clinch
Watershed Team, asserting Blackberry possessed water access rights under the TVA
Board-approved 1988 WBLP. Tumlin noted the partners in Blackberry included himself,
Varner, Heath “Schuler” [sic], and Danny Smith. Tumlin asked Greer for a prompt
response to the letter.

On August 10, 2005, by e-mail to Buff Crosby, Greer proposed that in view of the fact
that TVA provided erroneous information to Blackberry, the following course of action be
followed:

                  Here is how I propose to handle this. The attached letter
                  has been revised to leave the door open should Mr. Tumlin
                  wish to provide us with a copy of his purchase agreement for
                  the land (for our attorneys to review and for us to reconsider
                  our decision should we need to make good on the
                  information we erroneously provided to the customer). If
                  Mr. Tumlin believes he has a valid claim (and there are not,
                  in fact, exit clauses in his contract such as the ability to back
                  out of the deal without loss of earnest money if an appraisal
                  report is not satisfactory…which those clauses are pretty
                  standard), then we can offer to negotiate with him to build
                  one community facility. This is similar to the approach
                  Susan used awhile back when she had a staff member give
                  a customer incorrect information regarding landrights and
                  the customer invested the money based on what staff told
                  him. (Referring to the [REDACTED] transaction which is
                  reviewed later in this report.)




Inspection 2008-12003                                                                         Page 11
Office of the Inspector General                                             Inspection Report



This plan of action was approved by Senior Vice President Bridgette Ellis.
Tumlin gave Greer more than a month to answer his letter. Tumlin then wrote
Tom Kilgore, Chief Operating Officer (later CEO), and Bill Baxter, Chairman, TVA Board
of Directors, on August 29, 2005, asking for a response to his letter. Tumlin included a
copy of his earlier letter to Greer and again asked for a response to his proposal for
gaining water access rights on the Blackberry property.

Greer answered Tumlin’s letter on August 30, 2005 (See Appendix A for Greer’s
response to Tumlin). Greer’s discussion of the issues assumed Tumlin relied on the
draft of a new WBLP and did not address Tumlin’s assertion in his July 25, 2005, letter
that Blackberry had access rights under the 1988 WBLP. She further stated it was her
understanding Tumlin’s appraiser advised him of the water access issue, that the deeds
did not contain water access rights, mapping rights did not create access rights, and
that the draft maps of the new plan were not intended as guidance in private land
acquisition decisions. Greer ended the letter by stating that if Tumlin submitted further
information, it would be reviewed to see if there are other options. She also suggested
Tumlin consider submitting a Maintain and Gain application.6

On September 12, 2005, Tumlin and Varner met with Donna Norton, Manager, Watts
Bar-Clinch Watershed Team, and Greer. According to a recap of events prepared by
David Beverly, Blackberry’s Project Engineer, Tumlin and Varner were led to believe
getting a dock permit on Blackberry’s parcel was not a problem. Discussions centered
on transferring water access rights from one portion of the Blackberry property to
another which was more suitable for building a dock.

Norton and Greer requested Blackberry provide a copy of their contract with Bowater to
prove that the deposit of $81,920 was nonrefundable as the partners claimed. In a
letter from Bowater to Tumlin dated September 22, 2005, Bowater stated the earnest
money was nonrefundable should Blackberry not close on the property. Norton noted
the letter was not the purchase contract and called Varner to tell him TVA still needed to
see the contract. Neither Tumlin nor anyone else representing Blackberry provided
TVA with a copy of the purchase contract.

Blackberry wrote Chairman Bill Baxter and CEO Tom Kilgore

Beverly submitted a 26a application for a dock permit on behalf of Blackberry on
November 7, 2005. This application was rejected on November 16, 2005. Norton
phoned Beverly to tell him Blackberry did not have the water access rights necessary to
apply for a dock permit. Beverly received the rejected application in the mail the same
day.

Two days later Beverly and Pat Becker (a consultant hired by Blackberry to help with
the 26a process) met with Norton to discuss the rejected 26a application and to ask that
it be accepted. Beverly noted that Norton again rejected the application due to lack of
water access rights. Norton offered four possible solutions:

6
    Letter from Nancy Greer to Dennis Tumlin, August 30, 2005.


Inspection 2008-12003                                                               Page 12
Office of the Inspector General                                                                        Inspection Report



1. Blackberry could submit a Maintain and Gain application;

2. Blackberry could submit additional information which would cause TVA to reverse
   their decision;

3. TVA could open additional shoreline for development; or

4. TVA could pay a damage claim to Tumlin.

This exchange prompted Beverly to write a letter to Kilgore and Baxter. He argued that
there was an inconsistency between the draft WBLP and how the Watts Bar-Clinch
Watershed Team was implementing the plan. Beverly argued the shoreline of
Blackberry’s property was shown to have open water access on the draft plan and on
the 1988 WBLP and yet the Watershed Team refused to approve their permit
application. Speaking for Blackberry, he stated that “[w]e do not understand how the
TVA staff can be non-responsive and arbitrary in its interpretation of the Plan.” Finally,
he asked for help in resolving the matter. TVA received the letter, but Beverly did not
receive a response.

Blackberry Decided to Pursue Maintain and Gain

According to documents provided to TVA, Blackberry hired the law firm of Baker,
Donelson, Bearman, Caldwell, and Berkowitz (Baker Donelson). Robert Worthington,
attorney with Baker Donelson, presented Blackberry with three options for resolving the
water access issue.7

The first option was to take the position that under TVA’s SMP TVA would accept
applications for docks if shoreline was designated in a current TVA Reservoir Land
Management Plan as open for residential development. Arguably, the 1988 WBLP had
not been replaced by a subsequent land plan and was not in conflict with the SMP.
Under this argument, the 1988 WBLP was still in effect making the shoreline abutting
Blackberry’s parcel open for development; thus, giving Blackberry the right to apply for a
dock permit. Worthington did not believe this was a good option for Blackberry because
even if the case was won in court, TVA could derail efforts to build a dock. He wrote
that:
               [g]iven the nature and course of this dispute, and the
               subjective nature of the 26a application process, we are
               concerned that the Watts Bar-Clinch Watershed Team, if it
               felt that TVA senior management had directed it to accept a
               26a application against its judgment and policy, might
               predetermine in an act of retaliation that it would not approve
               … plans to construct a water-access facility and then
               develop justification for that predetermined position based on
               various subjective assessments.
                     (See Appendix B for complete memorandum.)
7
    This attorney client material was forwarded to TVA by Blackberry representatives and thereby lost any privilege or
    confidentiality ordinarily attached to it.


Inspection 2008-12003                                                                                           Page 13
Office of the Inspector General                                              Inspection Report



The second option presented was for Blackberry to apply for a Maintain and Gain
permit. Worthington advised Blackberry that this was a costly and time-consuming
strategy with no guarantees of success. Nevertheless, it could result in gaining the
necessary rights to construct a dock. A 26a application could be processed
concurrently with the Maintain and Gain application.

The final option was for Blackberry to lobby TVA for the adoption of the draft WBLP in
its 2005 form. The 2005 draft map showed part of the shoreline abutting Blackberry’s
property as being planned for water access. If the plan were adopted in this form,
Blackberry would have a right under federal regulation to apply for a dock. Worthington
again cautioned that this option only gave Blackberry the right to apply for a dock and
did not guarantee the dock itself would be approved.

Blackberry decided to pursue the Maintain and Gain. Tumlin related that as a land
developer it was likely he would interact with TVA on future projects, and litigating the
matter would hurt his relationship with TVA. In mid-April 2006, Erich Kennedy, an
associate attorney at Baker Donelson, began coordinating with TVA in order to submit a
Maintain and Gain application on behalf of Blackberry.

The composition of Blackberry changed in May 2006 when Shuler bought out Tumlin
and Varner. The buyout agreement gave Blackberry the right to extinguish a water
access easement on Tumlin and Varner’s Rhea County development, known as The
Overlook, as part of a Maintain and Gain. In July 2006, Blackberry began phase 1 of
development construction.

TVA “Grandfathers In” Blackberry As To Dock Size

In September 2006, TVA and Blackberry began discussing TVA’s rules which
determined dock size. Blackberry representatives had been told in April 2006 the
number of boat slips allowed was equal to 35 percent of the lots in the development.
This was known as the “35 percent rule.”

New guidelines, however, implemented the “10:1 rule” which required docks to have
one linear foot of water access rights for every ten square feet of dock. Under this rule,
Blackberry needed many more feet of shoreline with water access than they were
requesting. In fact, the new rule required Blackberry to open access to 1,080 feet of
shoreline to build the dock they were proposing under the new rule. TVA told
Blackberry that if they wished to fall under the 35 percent rule, they needed to submit
their 26a application before October 31, 2006. Although Blackberry had previously
submitted a 26a application which was rejected, they did not resubmit another 26a
permit application before the deadline. Since Blackberry submitted the initial 26a
application prior to the rule change, TVA allowed the proposed dock size to be in
accordance with the previous “35 percent rule.” TVA effectively, “grandfathered in”
Blackberry.




Inspection 2008-12003                                                                Page 14
Office of the Inspector General                                                    Inspection Report



TVA Rejected Blackberry’s First Maintain and Gain Application Submitted on
December 27, 2006

On December 27, 2006, Blackberry submitted a Maintain and Gain application to open
up 150 feet of shoreline access. This application was received by TVA on January 3,
2007. Blackberry also submitted a 26a application on that date. The Maintain and Gain
application was reviewed by the “Maintain and Gain review committee” which found the
proposal insufficient for several reasons. The Maintain and Gain review committee
found the shoreline access to be opened had more linear feet than the access to be
closed. The Maintain and Gain policy requires the amount opened be equal to or less
than the amount of access extinguished.
TVA documents outlined the guidelines for granting a Maintain and Gain application and
also set forth the reasons the application from Blackberry was rejected. That document
notes that this information was conveyed to Blackberry’s representative on February 7,
2007. The document states, in relevant part:

                  TVA received a land use application for a Maintain and Gain
                  (M&G) proposal for Blackberry Cove, LLC (Heath Shuler and
                  partners) on January 3, 2007. (Emphasis added.) TVA’s
                  M&G process allows TVA to consider proposals to “give up”
                  access rights at one location to “acquire” these rights at
                  another location when the action would result in no net loss,
                  or preferably, a net gain of public shoreline. Upon
                  conclusion of assessing the merits of the proposal, it was
                  determined that the proposal did not meet the requirements
                  necessary for further consideration by TVA’s M&G review
                  committee. Below is a listing of the minimum criteria by
                  which the proposal was evaluated:

                  1. Does the proposal result in no net loss, or preferably, a
                     net gain of public shoreline?

                      No. The proposal requests 250 feet of shoreline to be
                      opened for residential access. However, the applicant is
                      only offering to extinguish access rights over 150 feet of
                      shoreline (loss of 100 feet).

                  2. Does the proposal have clear public and resource
                     benefits?

                      No. The shoreline the applicant is offering to close is
                      narrow and severely eroded. The proposal gives the
                      appearance that the public is not gaining benefits.

                  3. Does the proposal provide TVA the same or greater
                     property acreage so the result would maintain or gain the


Inspection 2008-12003                                                                      Page 15
Office of the Inspector General                                                      Inspection Report



                        total amount of public land currently available for public
                        use?

                        No. Although the exact acreages affecting both tracts of
                        property are not identified in the proposal, the property
                        the applicant is asking TVA to open residential access
                        consists of significantly more acreage than the property
                        being offered to extinguish the rights over. The property
                        where the access rights are being asked to extinguish is
                        only owned to the 745-foot contour elevation (normal
                        summer pool on Watts Bar Reservoir is the 741-foot
                        contour elevation; therefore, the access exchange
                        property is basically a 4-foot-high eroding bank.

                    4. Does the proposal meet current guidelines for community
                       facilities?

                        No. As of November 1, 2006, no community facilities can
                        exceed 1,000 square feet in size for every 100 linear feet
                        of shoreline at normal summer pool dedicated for
                        community use (this proposal is for a 10,800-square-foot
                        community facility), which will require a closure of 1,080
                        linear feet of shoreline.

TVA Required Communications from Blackberry to be with Ombudsman

Heath Shuler was elected as a representative to Congress from the 11th District of North
Carolina in November of 2006 and subsequently sworn in as a member of Congress on
January 4, 2007. Shuler was assigned to the Transportation and Infrastructure
Committee’s Subcommittee on Water Resources and Environment. CEO Tom Kilgore
was scheduled to appear before this Committee on February 9, 2007. He was briefed
by e-mail by his staff about Blackberry’s Maintain and Gain application in anticipation of
possible questions by then Congressman Shuler.8 According to Kilgore, Shuler did not
ask any questions about the matter. In interviews with the OIG, Congressman Shuler
stressed that after his election to Congress he left the running of the Blackberry Cove
project to Jason Rudd.

A few days after the Committee hearing before Congressman Shuler, Kilgore read a
newspaper article dated February 19, 2007, which reported that Shuler had sold his real
estate business. In interviews with OIG staff, Kilgore stated that he assumed the
Blackberry development was part of the real estate sold by Shuler and that Shuler no
longer had a personal interest in Blackberry.

Shortly before March 20, 2007, Kilgore asked Peyton Hairston, Senior Vice President,
Ombudsman and Corporate Responsibility, to call Jason Rudd, Blackberry’s

8
    E-mail from Kathryn Jackson to Tom Kilgore, February 9, 2007.


Inspection 2008-12003                                                                        Page 16
Office of the Inspector General                                            Inspection Report



representative. Kilgore wanted Hairston to mediate issues between Blackberry and
TVA. Hairston and Rudd met on March 20, 2007; April 9, 2007; and April 16, 2007.
Beverly, Norton, and Mike Dobrogosz, Project Manager, were to attend these meetings.
The first meeting focused on Blackberry’s claim to water access and their reliance on
the erroneous information initially provided by TVA. However, the parties realized this
was not a viable approach, and the erroneous information issue was dropped in favor of
trying to find the best way to move forward with the Maintain and Gain transaction.

TVA’s discussions about how to handle communications with Blackberry Cove
representatives or Congressman Shuler were not shared with Congressman Shuler or
his congressional staff. The OIG review of this matter did not reveal any discussions by
TVA with Congressman Shuler or his representatives expressing any concern by TVA
about the apparent conflict of interest Shuler had with owning an interest in Blackberry
Cove and being on a congressional committee with oversight responsibilities that
included TVA. Congressman Shuler was not privy to the internal deliberations TVA had
to limit communications between TVA staff and the Congressman and his congressional
staff.

TVA Ombudsman Mediated with Blackberry’s Representative and TVA Decided to
Approve Blackberry’s Modified Plan

Blackberry’s representative Jason Rudd met with Peyton Hairston to find ways to
remedy the problems identified in the four-prong test referenced above which resulted in
the rejection of Blackberry’s December 27, 2006, Maintain and Gain application.

Each of the criteria used to reject Blackberry’s application was addressed. The issue of
whether Blackberry was asking to open more access than they were extinguishing was
resolved by Blackberry’s proposal to open access along a different piece of shoreline at
Blackberry Cove measuring only 145 feet. Obviously, this was less than the 150 feet of
access to be closed and thus met the basic Maintain and Gain criterion that the amount
of access opened be less than or equal to the amount of access closed.

The “public benefit” concerns were addressed by creating a 50-foot buffer zone on the
land where access was to be extinguished and an agreement that Blackberry would pay
$15,000 toward stabilizing the shoreline of Wading Bird Island. As indicated earlier, the
Maintain and Gain review committee noted the shoreline where water access was to be
extinguished was narrow and eroded. The 50-foot buffer created a wider swath of
protected shoreline where the habitat for plants and animals would be unchanged and
the natural view from the lake unaffected.

During one of the meetings held by Hairston, Rudd and Beverly suggested Blackberry
stabilize the shoreline of the extinguished access rights to create more public benefit.
This proposal was rejected because the shoreline was already a rock face with little
stabilization to be done. As an alternative, either Dobrogosz or Norton suggested
Blackberry stabilize a property other than the exchange property. TVA owns Wading
Bird Island which needed stabilizing but had not been done due to lack of TVA funding.
After Blackberry’s representatives agreed to fund the Wading Bird Island project, Norton


Inspection 2008-12003                                                              Page 17
Office of the Inspector General                                            Inspection Report



and Dobrogosz reviewed the proposal with Buff Crosby who concluded the Maintain
and Gain now had sufficient “public benefit” to be processed.

The OIG contracted with Mike Campbell, Campbell & Associates Appraisal Service, for
his expert opinion as to the reasonableness of the exchange of access rights, i.e.,
whether the access rights of the property that Blackberry was offering for exchange to
TVA was of equal value with the Blackberry property. Mr. Campbell agreed with the
conclusion of the Competitive Market Analysis (CMA) previously performed by TVA that
indicated the Rhea County property being offered by Blackberry was at least as
valuable as the Roane County property (Blackberry).

Blackberry Submits Second Maintain and Gain Application on May 1, 2007, and
Management Review Committee is Bypassed

On May 1, 2007, Blackberry submitted their second Maintain and Gain application along
with a 26a application for a dock permit which included a plan that both TVA and
Blackberry agreed would be sufficient. Shortly thereafter, Buff Crosby, Senior Manager,
Resource Stewardship, instructed Norton to suspend the Maintain and Gain review
committee’s consideration of the merits of Blackberry’s Maintain and Gain proposal.
Norton informed the Maintain and Gain review committee that “[d]ue to timing issues
and complications with this project, management has decided to bypass a committee
review and initiate the requisite environmental and programmatic review.” In his
interview with the OIG, Dobrogosz stated that the push to get this matter concluded
stemmed from the need to conclude the project in a timely manner and because TVA
“felt guilty” about having initially provided erroneous information. In his interview he
opined that the Maintain and Gain review committee was less crucial for this application
because they had already identified the issues associated with the Maintain and Gain
application in rejecting the previous application. Furthermore, there were no mandatory
rules about the composition of the Maintain and Gain review committee, and TVA
management could become the committee if TVA thought that was advisable.

Norton informed the Maintain and Gain review committee, which had rejected
Blackberry’s December 27, 2006, application, of the most recently negotiated proposal
that TVA was amenable to accepting. The new proposal included:

•   Blackberry would close 150 feet of shoreline access in exchange for opening
    145 feet of shoreline access.

•   The acreage underlying the easement extinguishing the 150 feet of shoreline access
    equaled 0.25 acres while the acreage encumbered by the 145 feet of shoreline
    access to be opened equaled 0.22 acres.

•   The access rights to be extinguished would include a 50-foot wide buffer zone for
    conservation which would be enforced through a deed restriction.

•   Blackberry would contribute $15,000 to fund shoreline stabilization for Wading Bird
    Island on Watts Bar Lake.


Inspection 2008-12003                                                              Page 18
Office of the Inspector General                                           Inspection Report



Not long after the Maintain and Gain review committee was bypassed, Rudd asked
Hairston for a letter from Kilgore confirming Kilgore would approve Blackberry’s
application if TVA staff approved it. TVA did not issue such a letter.

The Delay by TVA

Despite the fact that Blackberry had been promised approval of their Maintain and Gain
application in May of 2007, Blackberry was later told by TVA officials that they needed
to do an archeological survey. In August 2007, they learned that an archeological
survey was going to delay the process as TVA waited for lower lake levels. Lower lake
levels would allow the survey team to assess land down to the lowest water level
without hiring divers. This would have delayed the formal approval of the agreement
reached with Blackberry by several months at least.

Congressman Shuler was interviewed by the OIG and stated that he became one of the
owners of the Blackberry Cove development during the first half of 2005. In the fall of
2006, the Blackberry Cove owners hired Jason Rudd to manage the operations of
Blackberry Cove. Congressman Shuler said that he had no involvement in the day-to-
day operations of the business and received general reports on the status of operations
from Rudd. In May 2007, Rudd reported to Congressman Shuler that the permit
application with TVA was being processed and that Rudd was told by TVA that the
process would be finished and approved in about six months.

In August 2007, Rudd reported a new delay to Congressman Shuler in completing the
permitting process for the dock. TVA had advised that the delay involved not being
able to do a required archeological review until December 2007 or January 2008 when
the lake would be at low water. This was a new six-month delay that was clearly a
setback for Blackberry Cove.

On August 22, 2007, at 5:33 p.m., Rudd sent an e-mail to Peyton Hairston and a TVA
attorney in the Office of General Counsel. He copied Congressman Shuler and TVA
staffer Michael Dobrogosz (See Appendix C). Dobrogosz responded to the Rudd
e-mail but only to Hairston and the TVA lawyer and not to Rudd (See Appendix C).
Dobrogosz acknowledged that he did tell Rudd that there would be a six-month delay
for an archeological review. Dobrogosz acknowledged the conflict between Blackberry
Cove developers and TVA saying, “this is a good example of a customer just not liking
our answer.”

Congressman Shuler advised that he understood from Rudd that the permit would be
issued once the environmental and other studies were completed. He said that he had
been told that the process would take six months in May, but in August of 2007 he was
being told it would take a year.

Jason Rudd hand-delivered to TVA a letter signed by Rudd and detailed Blackberry’s
disappointment with TVA in initially providing erroneous information, refusing to
recognize water access rights to which Blackberry believed they were entitled, and
delaying the processing of the Maintain and Gain application. Rudd describes the

Inspection 2008-12003                                                             Page 19
Office of the Inspector General                                                                         Inspection Report



process of dealing with TVA as “painful and disappointing.” Rudd notes that while they
were willing to continue to work with TVA “our patience is wearing thin.” He closes the
letter by stating: “Any assistance that you or Peyton can provide to expedite this matter
will be greatly appreciated.” (See Appendix D for Rudd’s letter to Kilgore).

On August 24, 2007, Ellis e-mailed Kilgore a response to Rudd’s letter. In
summary, the e-mail made the following points:

•   Although a mistake was made in initially telling Blackberry they had water access
    rights, TVA staff notified Blackberry before the property was purchased that the
    necessary land rights for a dock did not exist. Blackberry was also told prior to
    purchase that a Maintain and Gain was an option for obtaining access rights.

•   TVA informed Blackberry that it took six months on average to process a Maintain
    and Gain proposal.9 In this case, the environmental review identified the need for an
    archeological survey which was generally conducted at winter lake levels. However,
    Rudd was informed an underwater survey could be conducted in order to continue
    progress. Blackberry opted to take that option.10

•   Once the survey work was complete, it would be submitted to the State Historic
    Preservation Officer (SHPO) and appropriate American Indian tribes. The SHPO
    and tribes would have 30 days for review.

•   The National Environmental Policy Act (NEPA) review would be completed in
    November and submitted to Kilgore for review.

•   TVA worked with Blackberry to obtain waivers from dock guidelines. Blackberry
    proposed an 11,200 square-foot dock facility which would require water access
    rights along 1,120 linear feet of shoreline. The waiver allowed Blackberry to build
    their facility on access to 150 feet of linear shoreline.

•   TVA would allow Blackberry to contribute $15,000 toward a stabilization project to
    stabilize a small island on Watts Bar Reservoir.

•   TVA did not use its normal internal and external concurrence process for
    Blackberry’s Maintain and Gain proposal which ordinarily would have included the
    internal committee review and the review of external natural resources agencies.




9
   Although Ellis states that six months is the “average” time to process an M&G application, this seems dubious in
   light of the fact that it took approximately three years to have the Shuler application approved.
10
   Ellis fails to mention that to avoid even more delay by TVA, Blackberry agreed to foot the bill to pay divers to do the
   underwater survey adding to their already considerable costs.


Inspection 2008-12003                                                                                            Page 20
Office of the Inspector General                                               Inspection Report



TVA staff prepared a draft letter to Rudd detailing how TVA had worked with Blackberry
to process the Maintain and Gain and 26a applications. The letter contained most of
the detail Ellis had provided to Kilgore. However, the letter was never sent to Rudd;
instead, Hairston spoke with Rudd on the phone about TVA’s efforts. Hairston followed
up on his conversation with Rudd by sending a letter to confirm that the process for
permitting the dock was “on track.”

Kilgore Directs Anda Ray to Personally Meet with Congressman Shuler and Rudd

In August of 2007, CEO Tom Kilgore put Anda Ray in the position previously held by
Bridgette Ellis as Vice President of Environmental Stewardship and Policy. Kilgore had
become unhappy with how the 26a applications were being handled and wanted
Anda Ray to make some changes. He directed her to personally meet with
Congressman Shuler and Rudd to solicit their views as “stakeholders” to see how they
thought the process could be improved.

Anda Ray was interviewed by the OIG and stated that from what Kilgore told her she
understood that Congressman Shuler was an owner of Blackberry. Acting on Kilgore’s
direction, on October 16, 2007, she e-mailed TVA staff members advising them that she
was going to set up a meeting with Congressman Shuler and Rudd. Staff members
pointed out that since Shuler was an owner of Blackberry meeting with him was “a
delicate issue.”

Bob Morris, Vice President, Valley Relations, e-mailed TVA staff members on
October 16, 2007, and reminded them that they had agreed to avoid meeting with
Congressman Shuler personally agreeing instead to meet with the “developer.”
(See Appendix E for e-mail chain with Morris.) Emily Reynolds, TVA’s Senior Vice
President of Communications, told Anda Ray that she would contact Kilgore and talk
with him about the issue. Reynolds told the OIG that she approached Kilgore and told
him that she was concerned about contacting Shuler due to the “ethical issue”
presented by Shuler’s financial stake in Blackberry Cove. According to Reynolds,
Kilgore agreed that the meeting with Shuler should not take place. Reynolds noted that
Kilgore did not ask her any questions about the extent of Shuler’s conflict of interest, but
she felt that he understood that Shuler’s personal financial interest created the ethical
conflict. Ray never met with Congressman Shuler or Rudd. None of these internal
discussions at TVA were shared with Congressman Shuler, his congressional staff, or
representatives of Blackberry Cove.




Inspection 2008-12003                                                                 Page 21
Office of the Inspector General                                                    Inspection Report



Name Dropping

Jason Rudd used Congressman Shuler’s name occasionally to prompt the TVA staff
to action. For example, an e-mail from Buff Crosby dated October 26, 2007, to
Bridgette Ellis and Anda Ray states that Rudd called Crosby wanting an update and
telling Crosby that Rudd will be meeting with David Beverly and “Heath Shuler.”

                  From: Crosby, Buff L

                  Sent: Friday, October 26, 2007 1:25 PM

                  To: Ellis, Bridgette K; Ray, Anda Andrews (sic)

                  Cc: Pickard, Karen J; Lawson, Helen; Shepard, Diane B;
                  Dobrogosz, Michael J; Norton, Donna E; Ferry, Daniel H

                  Subject: FW: Blackberry Cove


                  Jason Rudd has called asking for an update on the Project.
                  He has a meeting with David Beverly and Heath Shuler
                  today at 2:00 pm EDT. He knows the 30 day SHPO review
                  should be completed, therefore, wants an update. Attached
                  are talking points that we plan to use in updating Jason
                  today. They have been reviewed and concurred by OGC,
                  Dan Ferry and Cultural Resources.

                  Please let me know if you have any questions and we will let
                  you know the outcome of the call with Jason Rudd. I will be
                  calling Peyton Hairston to let him know the status as well, in
                  case Jason calls him after Mike Dobrogosz’s call.

                  Thanks (Emphasis added.)

                  (See Appendix F for Crosby October 26, 2007, e-mail.)




Inspection 2008-12003                                                                      Page 22
Office of the Inspector General                                                     Inspection Report



Again on October 29, 2007, Buff Crosby e-mailed Anda Ray about “pressure” from
Rudd and about Rudd meeting with “Heath Shuler” to update him on the status.

                  Anda,

                  The attached letter to the SHPO is ready for your review and
                  forwarding to Bridgette for her signature. When the letter
                  gets to the SHPO, the 30 day period for the SHP to
                  determine if they are going to contact the Advisory Council in
                  Washington will start. Therefore, the letter is time sensitive.
                  As I am sure you have seen by several emails from Friday,
                  we were under pressure to contact Jason Rudd. He had
                  asked for an update before his meeting with Heath Shuler on
                  Friday. Mike did contact him to let him know the situation
                  and the conversation went well. He does understand that if
                  the project is delayed it will not be in TVA’s hands. I also
                  contacted Peyton on Friday to let him know, in case Jason
                  decided to give him a call.

                  Please let me know if we need to discuss or you have any
                  questions.

                  Thanks
                  Buff (Emphasis added.)

                  (See Appendix G for Crosby October 29, 2007, e-mail.)

The OIG found no evidence that Congressman Shuler or his congressional staff was
aware that the Congressman’s name was being used in this way.

TVA Resolved Archeological Survey

As indicated from the above discussion, one of the reviews TVA was required to
conduct in issuing a 26a permit was a historical/cultural review. Such a review surveys
the land to determine whether it is likely that artifacts or other items of historical
significance are present. The physical area to be reviewed is termed the Area of
Potential Effect (APE).

TVA determined the APE for the Blackberry applications was the area near the
proposed dock. In a letter dated September 21, 2007, TVA notified the SHPO for
Tennessee and 14 federally recognized American Indian tribes of TVA’s APE
determination for the Blackberry dock project and solicited comments.

On October 2, 2007, SHPO’s Patrick McIntyre sent a letter to TVA stating he did not
concur with TVA’s determination of the APE and thought the APE actually
encompassed the entire Blackberry development. This opinion was based on the



Inspection 2008-12003                                                                       Page 23
Office of the Inspector General                                                  Inspection Report



SHPO’s belief the subdivision was constructed as a result of TVA’s willingness to allow
the construction of water-use facilities.

Of the American Indian tribes consulted, only the Chickasaw Nation, Eastern Band of
Cherokee, United Keetoway Band of Cherokee Indians in Oklahoma, Seminole Tribe of
Florida, and Choctaw Nation of Oklahoma responded. All tribes indicated no historic
properties to which they attach religious or cultural significance would be affected by the
dock project.

TVA thanked the SHPO for his input in an October 29, 2007, letter but declined to
change the APE. The SHPO responded to TVA in a November 7, 2007, letter
suggesting TVA refer the matter to the Advisory Council on Historic Preservation
(ACHP) in Washington, D.C. TVA sent the matter to the ACHP for comment in a
December 4, 2007, letter. Tom Maher, Manager, TVA Cultural Resources, authored the
letter and noted the following in support of TVA’s position that allowing the construction
of the dock did not result in the construction of the subdivision. He noted as follows:

•   The groundbreaking for the Blackberry project was in July 2006, while the
    application for the dock facility was submitted on May 1, 2007. The first phase of
    construction was substantially complete when the application was received.

•   The dock facility is an amenity for future subdivision residents, but it is not crucial to
    the establishment of the development. Several similar subdivisions in the area do
    not have docks. Additionally, without a boat dock, Blackberry residents could still
    enjoy other subdivision amenities such as a pool, tennis courts, and a club house.
    For residents who wanted boating facilities, there were two nearby public boat
    ramps.

•   Blackberry had 155 lots over approximately 185 acres which would cost an
    estimated $8.6 million to develop. The boat dock, covering only about 0.25 acres
    comprised only a small fraction of the total development cost. The issuance of a
    federal permit for a dock, which is such a small part of the project, was not enough
    to extend federal control and responsibility over the entire development.

The ACHP responded to TVA on April 10, 2008, stating the ACHP would not challenge
the TVA delineation of the APE because it appeared a reasonable argument could be
made that the applicant did not originally plan direct water access facilities. The ACHP
notified the SHPO they were not challenging TVA and that they believed TVA had
complied with the process. On May 26, 2008, TVA concluded the archeological review.

TVA Approved Blackberry’s Maintain and Gain Application

Blackberry’s Maintain and Gain application was officially approved by CEO Tom Kilgore
on June 3, 2008, consistent with TVA’s decision made earlier in May 2007 to approve
processing of the Blackberry application. At this point, the consummation of the deal
required: (1) drafting the deeds to extinguish access on the Rhea County exchange
property and to open access on the Blackberry Cove property; and (2) Blackberry to pay

Inspection 2008-12003                                                                    Page 24
Office of the Inspector General                                                                Inspection Report



TVA $15,000 for the stabilization work on Wading Bird Island. The consummation of
the process, however, was suspended after the OIG briefed TVA’s Audit, Governance,
and Ethics Committee on October 24, 2008, about this transaction.


                                             CHAPTER TWO

                           THE CHARLES PERRY TRANSACTION

The Conflict of Interest Arises

Charles Perry was, during the course of the events presented here, the General
Manager of Paris Board of Public Utilities, a distributor and customer of TVA. Perry
owned property in Sandy Shores Subdivision on the Kentucky Reservoir at Big Sandy
River mile 11.11 On September 23, 1996, Perry visited the Kentucky Watershed Team
office in Paris, Tennessee, to request a permit to construct a boat dock.12 The TVA staff
explained to Perry that he was not eligible to receive a permit because he did not own
the necessary land rights. Between his property and the reservoir, TVA had retained a
strip of land which was allocated for upland wildlife management in the 1985 Kentucky
Reservoir and Management Plan (Plan). Perry was also told by staff that TVA was in
the process of developing the SMI and that some of the proposals would allow
additional structures where the TVA tracts were narrow and where residential
development had already occurred.

The next day Perry wrote former Director Johnny Hayes requesting his assistance in
obtaining a boat dock. On October 18, 1996, Director Hayes sent a letter to Perry,
addressed to Perry’s office at the Board of Public Utilities. The letter reiterated what
Perry was told at the Watershed Team office, including that the current guidelines could
change pending the outcome of the SMI. Director Hayes noted that three of the six
proposals allowed additional residential shoreline development and that if additional
development were to be allowed, the Sandy Shores area would likely be identified as an
area suitable for additional development because the strip of TVA land was narrow, had
been cleared and maintained, and the adjacent property was residentially developed.13
In 1998, Perry contacted William Taylor, Senior Customer Service and Marketing
Manager in Memphis, Tennessee, and asked for his assistance. Mr. Taylor discussed
the situation with Ruben Hernandez, and Hernandez called Perry and restated once
again TVA’s previous position. The SMI had not been completed so there was still a
possibility that Perry’s situation could change. Hernandez promised Perry that TVA
would follow up with him as soon as the final SMI was approved by the TVA Board.14




11
   Land Use Application Form submitted by Charles Perry, file stamped June 21, 2002.
12
   Memorandum to TVA Board (Directors Craven Crowell, Skila Harris, and Glenn McCullough, Jr.), June 26, 2000.
13
   Letter from Director Hayes to Charles Perry, October 18, 1996.
14
   Supra, memorandum to TVA Board, June 26, 2000.


Inspection 2008-12003                                                                                   Page 25
Office of the Inspector General                                                          Inspection Report



TVA Told Perry No

In 1999, the SMI was adopted as policy by the TVA Board, and it did not allow for
additional structures in Perry’s situation. In December 1999, W. Greg McKibben,
Kentucky Watershed Team Manager, met with Perry and informed him that the SMI had
been approved, but there was no provision for approving additional facilities except for
the “Maintain and Gain” policy. The Maintain and Gain program was explained to Perry.

Perry Built Boat Dock - TVA Says Tear It Down

During the spring of 2000, despite not having a permit, Perry had a boat dock built on
his property on the Kentucky Reservoir. It was built in accordance with the plans
submitted by Perry with his application for a boat dock permit. Later, Perry found a
notice on his dock to tear it down, and on June 13, 2000, Perry went to the Kentucky
Watershed Team office and asked who had posted his boat dock and why.15 The staff
was not aware Perry had built a dock and told him that someone else must have posted
the dock. However, Perry was informed that TVA could not approve a dock at his
location. Perry said he would come back later to discuss the situation when
Greg McKibben was in the office.

Between June 13 and June 26, 2000, TVA received phone calls from a real estate
agent and one of Perry’s neighbors asking if TVA had changed its policy and was now
approving docks in the Sandy Shores area. They were told the policy had not changed
and TVA was not permitting any new facilities.

On June 26, 2000, Kathryn Jackson, Executive Vice President, River System
Operations and Environment, wrote a memorandum to the TVA Board advising them of
the unauthorized boat dock. She concluded her memorandum with the following
recommendation:

                  We believe that we need to meet with Mr. Perry and advise
                  him that his dock will have to be removed. This is the only
                  way to consistently administer our shoreline management
                  policy.16

On September 15, 2000, Perry wrote to his fellow Sandy Shores lakefront lot owners,
soliciting partners in a Maintain and Gain application for shared access to the lake.17 In
the letter, Perry explains his understanding of the Maintain and Gain policy:

                  I am owner of Lot 55 in Sandy Shores Subdivision on
                  Kentucky Lake and have constructed a boat dock in front of
                  it without a permit. I have been informed by TVA that I must
                  remove the dock or purchase land or a land easement from

15
   Id.
16
   Id.
17
   Letter from Charles Perry to Sandy Shores lakefront lot owners, September 15, 2000.


Inspection 2008-12003                                                                            Page 26
Office of the Inspector General                                                                Inspection Report



                  a private owner that is between the 359 and 375-foot
                  elevation and make a trade to TVA for rights in front of my
                  lot. This would be under TVA’s maintain and gain public
                  shoreline policy.18

Perry Initiated Maintain and Gain Application to Prevent Dock Removal

On June 21, 2002, Perry paid the $5,000 fee for his Maintain and Gain application.19
Three days later Perry signed and dated the application.20 The application, which
ultimately is for a boat dock that had already been built, backdated the time schedule for
the project to January 6, 2000, to April 10, 2000.21

On August 28, 2002, in a letter to Ember Anderson, a Kentucky Watershed Team
member, the TWRA explained the impact on the environment if the Perry Maintain and
Gain swap was approved and suggested “that under the terms of this proposal there are
not significant “gains” to justify this action.”22

On January 13, 2003, Don Allsbrooks, Manager, Resource Stewardship, Watershed
Operations, wrote a letter to Perry advising him that his Maintain and Gain proposal did
not meet the minimum requirements.23 Allsbrooks explained that the request for water
access rights for both Lots 54 and 55 (234 feet of shoreline) in exchange for
relinquishing access rights for property with 175 feet of shoreline resulted in a net loss
of public shoreline and would not meet minimum Maintain and Gain requirements.
However, Allsbrooks suggested:

                  If you choose to modify your proposal to only include your lot
                  (lot 55), this would result in a gain of 44 feet of shoreline and
                  would allow TVA to continue processing your request.24

Allsbrooks also advised Perry of the additional shortcomings of his application:

                  Our review also included preliminary coordination with the
                  U.S. Fish and Wildlife Service and the Tennessee Wildlife
                  Resources Agency. Responses from both agencies raised
                  questions about the limited resource and public benefits
                  associated with the proposal. In general, both agencies felt
                  that the shoreline fronting the exchange property was
                  already somewhat protected from shoreline development
                  due to the presence of existing regulated wetlands and little
                  public or resource value would be gained in the exchange.25
18
   Id.
19
   Maintain and Gain Application (Application Form Land Use), “Paid” stamp, page 1.
20
   Id., page 2.
21
   Id., page 1.
22
   Letter from Steve Seymour, Aquatic Habitat Biologist, TWRA, to Ember Anderson, August 28, 2002.
23
   Letter from Don Allsbrooks to Charles Perry, January 13, 2003.
24
   Id.
25
   Id.


Inspection 2008-12003                                                                                  Page 27
Office of the Inspector General                                                                       Inspection Report



Allsbrooks closed by suggesting a modified application with more land and shoreline
would improve his chance of gaining approval:

                  If you submit a modified request that meets the minimum
                  M&G requirements, TVA will continue processing your
                  proposal. The next step in the process will involve public
                  review. As we have communicated in the past, TVA cannot
                  guarantee approval of your request. All proposals must
                  show clear resource and public benefits. Comments
                  received from the two outside agencies would suggest that
                  your proposal might be more favorable to the general public
                  if you could provide additional acreage and shoreline to your
                  proposed exchange.26

Perry Modified Maintain and Gain Application to Resolve Issues

On February 3, 2003, Perry submitted a modified application in which he dropped
Lot 54 of Sandy Shores as a recipient of water access rights.27 Perry proposed to
convey the fee simple interest in 0.55 acre, more or less, affecting Lot 86A (TVA
Acquisition Tract No. GIR-3948) and extinguish existing access rights affecting TVA
land fronting Lot 87, both in Harbor Town Subdivision, Benton County, Tennessee (TVA
Tract No. XGIR-666). In exchange, TVA would convey a permanent recreational
easement (TVA Sale Tract No. XGIR-943RE) that would affect acquisition Tract No.
GIR-3657 located adjacent to Lot 55 of Sandy Shores Subdivision in Henry County,
Tennessee.28

On February 24, 2003, Ember Anderson, Watershed Representative, Kentucky
Watershed Team, sent the modified application to Robert Bay of the U.S. Fish and
Wildlife Service inquiring whether the modified application changed their position on the
value of the proposal to the environment.29

On February 26, 2003, Steve Seymour, TWRA, wrote to Ember Anderson stating:

                  From an environmental concern I do not feel that the
                  changes to the number of feet of shoreline associated with
                  the “receive” property has any bearing. The position of the
                  Tennessee Wildlife Resources Agency is that without this
                  proposed “swap” the natural habitat will be benefited on both
                  sides of the Big Sandy River.




26
   Id.
27
   Cover letter for Reservoir Shoreline Maintain and Gain Application, February 3, 2003.
28
   Title Report on properties within Perry application by Gregory Bates, Paralegal, March 15, 2005.
29
   E-mail from Ember Anderson to Robert Bay, March 6, 2003.


Inspection 2008-12003                                                                                         Page 28
Office of the Inspector General                                                      Inspection Report



On March 24, 2003, Robert Bay sent an e-mail to Ember Anderson stating:

                  It remains our opinion that the exchange tracts are not suitable
                  for shoreline development due to isolated location and the
                  presence of wetlands. We do not believe there is any significant
                  threat to the shoreline and habitat on this tract. Consequently, it
                  would not be a suitable trade, in our mind, for the shoreline of
                  the tract that Mr. Perry has already developed.30

TVA To Perry: Tear Down That Dock

On March 10, 2004, Allsbrooks told Perry in a letter that his revised Maintain and Gain
proposal cannot be approved, and directed Perry to remove his boat dock.31

                  In our November 14, 2003 letter, we stated that the only way
                  to make this proposal acceptable was for you to acquire and
                  extinguish all access rights between the proposed exchange
                  lot and open water in order to provide effective resource
                  protection of the shoreline. Your revised proposal failed to
                  accomplish this and therefore cannot be accepted.

                  … We regret that you were unable to provide us with an
                  acceptable Maintain and Gain proposal that would allow your
                  un-permitted facility to remain at its current location. In view
                  of this, we must now ask that you remove this facility from
                  the reservoir within 30 days of receipt of this letter.32
                  (See Appendix H for complete letter.)

Perry Purchased Additional Property to Offer for Exchange

In order to make another more appealing offer to TVA, Perry acquired by option the lake
access rights to Lot 87. This purchase option was dated April 12, 2004, and expired
nine months later.33

On June 18, 2004, Kentucky Watershed Team Leader Ember Anderson approved of the
exchange of water access rights offered in Perry’s Maintain and Gain proposal stating
for the file in a memorandum:

                  … Mr. Perry purchased an option on the access rights to an
                  adjoining lot and even though he has not purchase [sic] all
                  access rights to open water, KWT feels the minimum
                  requirements for a M&G proposal are met, the integrity of the


30
   E-mail from Robert Bay to Ember Anderson, March 24, 2003.
31
   Letter from Don Allsbrooks to Charles Perry, March 10, 2004.
32
   Id.
33
   Letter from Gregory Bates, Paralegal, to Ember Anderson, March 15, 2005.


Inspection 2008-12003                                                                        Page 29
Office of the Inspector General                                                                   Inspection Report



                  wetlands would be protected, and we recommend TVA
                  proceed with his request.34

On September 1, 2004, Brian Child, Corporate Finance and Risk Management,
endorsed Perry’s Maintain and Gain proposal, subject to meeting all other Maintain and
Gain requirements and that Perry paid all of the administrative costs.35

TVA Recommends Approval and Suggests Forgoing Public Notice Due to
“Sensitivity”

On March 21, 2005, Ember Anderson and Don Allsbrooks authored an Issue Briefing
Paper justifying a sequential approval by the TVA Board of the Charles Perry Maintain
and Gain proposal.36 Of note are the following segments from the Issue Briefing
Paper:37
               Issues: Mr. Perry is the General Manager of the Paris Board
               of Public Utilities, a distributor of TVA. His unauthorized
               dock was discovered in June of 2000 and posted for
               removal. He opposed removal and subsequent meetings
               were held and letters written to resolve the issue. Ultimately,
               the RS VP agreed to allow Mr. Perry to pursue a M&G
               proposal, even though M&G was not intended to be used on
               a lot-by-lot basis. This proposal was coordinated with both
               the Tennessee Wildlife Resources Agency and the U.S. Fish
               and Wildlife Service. Comments from both agencies were
               neutral to negative and basically questioned the pubic [sic]
               and resource value to be gained by TVA’s consideration of
               this action. Due to the sensitivity of this action, RS
               management recommended that this action forgo Public
               Notice and that it be handled sequentially.” (Emphasis
               added.)

                  Recommended Action: KWT recommends sequential Board
                  Approval to resolve a long standing 26a violation with the
                  General Manager of one of TVA’s distributors.38 (Emphasis
                  added.) (See Appendix I for complete Issue Briefing Paper.)

On March 28, 2005, Don Allsbrooks extended an agreement to Perry whereby in return
for a recommendation of approval of the proposed land rights exchange to the TVA
Board of Directors, Perry would accept conveyance of the land rights exchange when
tendered by TVA and thereupon would pay TVA the administrative costs, estimated at
approximately $23,411. Upon receipt of the agreement signed by Perry, TVA would
34
   Memorandum from Ember Anderson, Kentucky Watershed Team, June 18, 2004.
35
   E-mail from Brian Child to Ember Anderson, with copies to Allsbrooks, Robinson, and Terrell, September 1, 2004.
36
   Issue Briefing Paper prepared by Ember Anderson and Don Allsbrooks, Kentucky Watershed Team,
   March 21, 2005.
37
   Issue Briefing Paper prepared by Ember Anderson and Don Allsbrooks, Kentucky Watershed Team,
   March 21, 2005.
38
   Id., emphasis added.


Inspection 2008-12003                                                                                      Page 30
Office of the Inspector General                                                                Inspection Report



continue processing his request and present it to the Board for approval. Perry signed
the agreement on March 29, 2005.39

Perry Requested Reduction of Administrative Costs

In June 2005, Perry wrote to Congressman John Tanner40 and Senator Lamar
Alexander41 requesting assistance in reducing the amount of administrative costs from
the anticipated $23,411 to the initial $5,000 estimate. Neither Tanner nor Alexander
appear to have intervened on Perry’s behalf except to inform TVA of Perry’s appeal to
them.

On June 22, 2005, TVA General Counsel Maureen Dunn forwarded to Hugh Standridge
a draft recommendation memorandum and a prepared and initialed proposed Board
resolution approving the Maintain and Gain proposal of, and granting an easement to,
Charles Perry.

In August 2005, the Environment Site Assessment of Lot 86A-Unit 7 Extended,
Kentucky Lake Heights Subdivision, Big Sandy, Benton County, Tennessee, was
completed. This assessment evaluated whether there were any environmental or
historical liabilities attached to the piece of property that Perry was proposing to give to
TVA as part of his Maintain and Gain application.42

On August 15, 2005, in response to a request from Perry for a breakdown of the
administrative costs he was assessed, Allsbrooks sent a letter to Perry breaking down
the final administration cost at $27,711.77, minus the initial processing fee of $5,000, for
a balance of $22,711.77.43

In a document entitled “Board Questions,” the TVA staff addressed Perry’s attempt to
have his administrative costs reduced by noting “TVA probably would not have
considered this action were it not for his position as general manager of a TVA
distributor.”

On January 10, 2006, TVA granted Charles Perry a recreational easement across the
TVA strip of land between Perry’s Sandy Shores lot and Kentucky Lake.44




39
   Letter Contract No. RLR-124645 from Don Allsbrooks, March 28, 2005.
40
   Letter from Perry to Congressman John Tanner, June 7, 2005.
41
   Letter from Senator Lamar Alexander to Paul Phelan, Program Manager, Valley Relations, June 28, 2005.
42
   Phase I Environmental Site Assessment of Lot 86A-Unit 7 Extended, by TVA River Systems Operation and
   Environment Resource Stewardship, Muscle Shoals, Alabama, August 2005.
43
   Letter from Don Allsbrooks to Charles Perry, August 15, 2005.
44
   Deed of Easement, from TVA to Perry, executed January 10, 2006, filed January 18, 2006.


Inspection 2008-12003                                                                                      Page 31
Office of the Inspector General                                                                     Inspection Report



On January 17, 2006, a Management Committee meeting was held where the following
notes were made of topics discussed:
                  Cypress Creek Landowners Association has contacted
                  Congressman Tanner’s office about their displeasure with
                  our land office granting a 26a permit to a non-resident of
                  Cypress Creek. Valley Relations is coordinating a meeting
                  with Tanner’s office, Paris Land office, and Cypress Creek’s
                  Association for early February.45 A dispute between the
                  Paris Land office and Charles Perry has been resolved, and
                  paperwork will be signed later this week. Don mentioned
                  how B [sic] “bending the rules” on our existing maintain and
                  gain program to benefit property owners has opened up a
                  “Pandora’s Box.” We can Eexpect [sic] other land owners
                  who are well off to use this case as a precedent for
                  achieving like goals.46 (Emphasis added.)

Don Allsbrooks was interviewed by the OIG and confirmed that he is the “Don” quoted
above but doubted that he used the phrase, “bending the rules.” He stated that while it
was his belief that while TVA allowed Perry access in an “unpermittable area,” Perry
was nevertheless held to the same standards as anyone else. Allsbrooks knew that any
dealing with a utility manager like Perry would be suspect, and he made a point of
reminding those TVA employees working on the Perry Maintain and Gain that what they
did would be scrutinized, and therefore they needed to be careful to avoid giving special
consideration to Perry. He did feel like if Perry had not been a utility manager that the
TVA personnel might not have raised the possibility of a Maintain and Gain application
with Perry initially. Allsbrooks said that TVA kept the pressure on Perry to pay more
than $22,000 in administrative expenses or risk TVA taking down Perry’s dock.

The OIG interviewed Ember Anderson who was a pivotal player in the Perry transaction.
She was employed by TVA during that time in various roles on the Kentucky Watershed
Team. Anderson told the OIG that Perry’s case was “out of the ordinary.” Anderson
said that she had feared that approving Perry’s lot-by-lot transaction would set a
precedent although she had been told by manager Don Allbrooks that TVA did not
intend to grant lot-by-lot transactions in the future.

Anderson said that it was her opinion that her team felt pressure to grant Perry his
permit because of pressure Perry had brought to bear on “politicians” who wanted an
accommodation for Perry. She also stated her opinion that TVA was making a special
arrangement for Perry because he was a manager of a utility and he had threatened to
pull the Paris Board of Public Utilities out and contract with someone else other than


45
   It is unclear if the Cypress Landowners’ complaint is about Charles Perry or another individual. Perry actually did
   not receive his 26a boat dock permit until two months after this meeting. The topics discussed were run together in
   the notes.
46
   Management Committee Report, Regional Field Coordination Teams 04-03-06.doc, reference: January 17, 2006,
   meeting.


Inspection 2008-12003                                                                                        Page 32
Office of the Inspector General                                                                 Inspection Report



TVA to supply their power. The OIG quizzed Anderson about the basis for her opinion,
but she was unable to provide any firsthand evidence to support her opinion.

Former Board Chairman Bill Baxter was interviewed about the Perry transaction, and he
recalled that Perry was “mad as a hornet” about how TVA was treating him. Baxter
recalled his involvement in the Perry matter as “conflict resolution.” He noted that the
staff appeared “sensitive” to the fact that Perry was the manager of a utility TVA
serviced, but Perry was required to meet the requirements for a Maintain and Gain
permit just like anyone else. Ultimately, Baxter’s role was trying to resolve the conflict
between Perry and the TVA staff, and in the end TVA recommended granting the permit
and Baxter gave written approval to do so.

The OIG interviewed Charles Perry on December 2, 2008. Among other things, Perry
said that he thought that it would be “easier to get forgiveness than permission” when
he built his dock. It cost him less than $10,000 to complete his dock his dock. When he
was first told by TVA about the possibility of a Maintain and Gain, he was told that it
would cost about $5,000. He paid that amount upfront. When Don Allsbrooks came to
his office in March of 2005, Allsbrooks told him that his Maintain and Gain would be
approved, but he would have to pay approximately $28,000 in additional fees.
According to Perry, Allbrooks seemed ashamed to have to tell Perry that. Perry later
requested that TVA put everything in writing which resulted in TVA reducing the fee
amount to more than $22,000.

Perry wrote letters to his congressmen on the Paris Board of Utilities’ letterhead to gain
some relief from what he thought was outrageous fees although he stated that his
“pleas fell on deaf ears.” Perry admitted hoping that his position as general manager of
the utility that provided $25 million in revenue to TVA would influence TVA in his favor.
He said using official letterhead was a “mistake,” and he denied ever threatening TVA
with leaving TVA and in fact he claimed that he had talked a Paris Board of Utilities
board member out of trying to go with another source of power.

Perry believes that TVA actually used his position against him. He paid more than
$31,000 to get his dock permitted and if he had known that it was going to be that
expensive and difficult to do he would have never built the dock. He cited an example
of TVA overcharging him as the survey costs TVA charged him in the amount of
$8,983.95 for three lot surveys. Perry was a licensed engineer and a surveyor, and he
knew this was an exorbitantly high amount for the work that was done.47

On March 13, 2006, TVA approved the permit to allow the boat dock to remain.




47
     Former TVA Board Chairman Bill Baxter expressed similar sentiments when interviewed by the OIG. He thought
     that survey costs generally in the Maintain and Gain transactions were too high.


Inspection 2008-12003                                                                                    Page 33
Office of the Inspector General                                                  Inspection Report



                                     CHAPTER THREE

                  THE WILLIAM (“BILL”) SANSOM TRANSACTION
Knox County Requested Change in Land Use Designation From Recreational to
Residential Use Including a Plan for Sansom to Request a Maintain and Gain

As part of the approval, a plan was accepted to allow William Sansom, once he had
ownership of the tract, to submit a request to extinguish rights for private water-use
facilities on approximately 600 feet of privately owned shoreline in exchange for the
rights to construct private water-use facilities at the transfer tract. It is to be noted that
processing the Knox County request fulfilled all the requirements needed for Sansom’s
Maintain and Gain request including: (1) determination of public benefit, which
encompasses historical and cultural reviews, and (2) environmental assessments.
Therefore, no additional steps were taken when Sansom submitted his application.

The TVA Board approved this transaction at the March 16, 2004, Board meeting.
However, the approved Board resolution required Sansom’s Maintain and Gain to be
submitted within one year of the Board resolution. The sale of the tracts took longer
than a year and was not completed until October 2005. Therefore, sequential Board
approval, obtained on February 23 and 24, 2006, was required to complete Sansom’s
Maintain and Gain transaction. Sansom submitted his Maintain and Gain application on
February 3, 2006, which did not require any further Board actions. TVA completed the
programmatic processing on April 28, 2006.

Mr. Sansom was nominated to the TVA Board on November 18, 2005, confirmed by the
Senate on March 3, 2006, and sworn in on March 31, 2006.


                                      CHAPTER FOUR

                             EXCEPTIONS THAT ATE THE RULE
We identified other instances where TVA granted water access rights for property that
was not approved for access under the SMI. According to TVA policy, one of these
transactions would normally require a Maintain and Gain proposal from the landowner
to gain access rights. TVA granted lake access for these individuals due to TVA
providing erroneous information to the landowner and on persistent appeals to the
Board and/or management. Since TVA does not track which permits are granted
without the required Maintain and Gain, management provided three transactions based
on their recollection of events. We could not determine how many permits were granted
that should have had a Maintain and Gain proposal. The following discussion provides
details related to these three transactions.




Inspection 2008-12003                                                                    Page 34
Office of the Inspector General                                             Inspection Report



Our review of these exceptions included interviewing relevant TVA staff and former
Board Chairman Bill Baxter. Although Baxter did not recall the specific cases that we
discuss below, he was able to discuss the process that was in place generally to handle
these waterfront access issues.

Baxter stated that the Maintain and Gain process was like the rezoning process in city
government. The Maintain and Gain gave the opportunity for changes to occur which
allow for changes during the period between the major reviews of the land policy much
like zoning variances do in the development of cities. Baxter pointed out that the
process was not so much different than the land swap policy TVA employed in the past.
The idea was to gain for TVA and the public while at the same time allowing for
economic development and changing conditions.

Baxter and other Directors typically became involved in Maintain and Gain situations
that were problems and which had been going on for a long time. He believed that the
majority of transactions he became involved in were conflict resolution – trying to reach
some agreement (either yes or no and why not). When a matter came to Baxter’s
attention he would normally call River System Operations and Environment, generally
Buff Crosby, and ask what the situation was and what the alternatives were so that he
could understand it. He thought that Buff Crosby and Bridgette Ellis were relatively
reasonable when he dealt with them. Below that level the staff wasn’t usually helpful.
Baxter always tried to reach an equitable arrangement for TVA and the other parties
whenever possible.

As things proceeded in dealing with these situations, Baxter wanted to find out if there
would be any negative environmental impact or if there would be any future problems
because of precedent setting, but he also wanted to balance the equation with
economic development. Baxter stated that he relied on the staff for information. Baxter
commented that his bias was toward economic development. Baxter tried to balance
TVA’s economic development responsibilities with TVA’s environmental stewardship
responsibilities. Baxter also sought some sort of a decision or resolution of these issues
whether it was a yes or no with regard to the matters that came to him. Baxter identified
one of the problems he encountered in these situations as the “no answer” TVA often
gave people who needed some sort of an answer.

With regard to the approval of Maintain and Gain requests and the like, Baxter followed
the staff recommendation to approve. The staff performed their duties and that to the
best of his knowledge he always voted in agreement with the staff recommendation.
Baxter does not believe that any of the applicants received preferential treatment. He
thought the Maintain and Gain program was a good program because it allowed people
to be able to develop their land without having to wait for the Land Management Plan to
be updated, which might be every 10–20 years.

One area he was bothered by connected to the Maintain and Gain and the 26a
programs was the costs TVA charged the applicants for the services TVA provided. He
thought the charges to customers made by TVA were outrageous. Baxter, as a
businessman, thought the legal and surveying costs, as an example, were out of line.


Inspection 2008-12003                                                               Page 35
Office of the Inspector General                                                 Inspection Report



TVA Gives Erroneous Information to [REDACTED]

[REDACTED] purchased property on Cherokee Lake in 1994. [REDACTED] property
consists of one tract containing [REDACTED] on opposite sides of a cove. The parcels
are separated by a private landowner on the landward side and TVA land on the
lakeward side. TVA policies regarding shorelines open for private docks changed on
June 16, 1994. After June 16, 1994, TVA only accepted applications for approval on
marginal strip property with deeded rights of ingress and egress. [REDACTED] met
with TVA in August 1994 prior to the purchase [REDACTED]. He discussed the
opportunity to apply for a dock to serve the residence he planned to build and was
advised that TVA would accept his application for a structure.

The TVA staff did not check the deed for rights of ingress and egress. According to
discussions with the Watershed Team and our review of correspondence between TVA
and [REDACTED], it was not common for a Land Use Specialist to consult the property
deed when advising landowners if they had water access rights on Cherokee Lake. We
were specifically told that the common practice in 1994 was to consult a “D-Stage map”
to determine if the property owner had water access rights. This practice was called a
marginal strip policy. If the TVA owned land between the property owner and Lake
Cherokee was determined to be a marginal strip of land, the property owner was
granted water access rights by the Watershed Team. Therefore, since the TVA owned
land between Cherokee Lake and [REDACTED] parcels of land, it was determined by
the Watershed Team to be marginal. [REDACTED] was advised that he had water
access rights to Cherokee Lake. The practice of verifying whether the property had
deeded water access rights was not performed until 1999 when the SMP was initiated.

[REDACTED] Decided to Sell Property and Was Informed That TVA Made an Error
and His Property Did Not Have Lake Access Rights

When [REDACTED] decided to sell his land in 2001, TVA consulted the property deed
and determined that he did not have water access rights. When [REDACTED] was
informed of TVA’s position, he obtained legal representation and notified TVA of his
desire to find a suitable solution. In a letter dated November 1, 2001, TVA stated that
they would consider a request for a single, private water-use facility to meet the
commitment made to [REDACTED] back in 1994. On November 9, 2001, [REDACTED]
responded to TVA with a letter that stated that this arrangement falls short of meeting
the commitment made in 1994. [REDACTED] stated that, “When TVA allows water use
facilities for both tracts, sufficient to provide adequate dockage for the waterfront lots,
they will have honored their commitment. [REDACTED] further stated:

                  …I plan to appeal the proposal that was presented. You
                  explained that in the absence of a formal appeals process,
                  that my attorney, [REDACTED], and I are free to proceed in
                  whatever direction we chose [sic], including requesting a
                  meeting with TVA Board of Directors. It is our intent to
                  pursue that meeting. I continue to hope that this issue can
                  be resolved “in house” if at all possible. The resolution


Inspection 2008-12003                                                                   Page 36
Office of the Inspector General                                                    Inspection Report



                  process has been going on for months now, and as far as I
                  know, a meeting with the Board of Directors will pretty much
                  exhaust my internal avenues.

According to an e-mail between the then Senior Manager of Watershed Operations and
the Vice President of Resource Stewardship, it was stated, “Attached is the [issue
briefing paper] for [REDACTED] and recommendation. There is a concern that
[REDACTED] may contact the Board. If we need to discuss, please let me or [Team
Manager, Cherokee Douglas Watershed Team] know.” The aforementioned
[REDACTED], stated that, “We believe that in offering to review one water-use facility
request we have met our commitment. Therefore, we do not recommend allowing
additional water-use facilities on public property fronting his property.” Additionally, in a
previous [REDACTED], it was stated:

                  If [permission for more than one water use facility] granted
                  we could send a confusing message to stakeholders. There
                  are areas near [REDACTED] property where individuals are
                  not allowed to have facilities. Some of these areas are in
                  sight of [REDACTED] property, and in particular, one
                  individual is developing a maintain and gain proposal, in
                  order to have a private dock. In addition, such an action by
                  TVA may appear as if we are allowing additional residential
                  development; unfairly contributing to the financial gain of an
                  individual; and showing favoritism.

The [REDACTED] also detailed a case where another property owner inquired about a
dock in front of his property in 1994. The following was explained:

                  As in [REDACTED] case, we said yes since the property
                  was sold to the 1075-foot contour. At that time we also did
                  not look at the deed to see if access rights existed. [The
                  other applicant] never applied for a dock. In November
                  1999, [the other applicant] called TVA and said he was going
                  to auction his house and property and wanted to check again
                  to see if a new owner could have a dock. We explained that
                  he did not have deeded rights and that we would not permit
                  a dock at this location. [The purchaser of the property]
                  called before the auction inquiring about whether or not a
                  dock would be allowed and we said no. The sale occurred
                  as scheduled and [the purchaser of the property] did buy the
                  property in December 1999.

The Executive Vice President, River System Operations and Environment, informed
[REDACTED] by letter on April 26, 2002, that TVA would consider one community dock
or community slip facility for [REDACTED] and one community dock or community slip
facility for [REDACTED]. Those facilities would be allowed up to 50 boat slips for the
former and up to 15 boat slips for the latter. Additionally, TVA informed [REDACTED]


Inspection 2008-12003                                                                      Page 37
Office of the Inspector General                                                                       Inspection Report



that they would not accept requests for private individual docks or any other water-use
facility to service either the [REDACTED] property. Furthermore, [REDACTED] was
also informed that TVA would not agree to the construction of a road or a causeway on
TVA land or to the granting of an easement or other land-use right on or across TVA
land for the purpose of connecting the [REDACTED] parcels. [REDACTED] agreed to
this arrangement.

In an interview with the Cherokee Douglas Watershed Manager, she stated that there
was a consensus among involved TVA personnel that TVA was wrong, made a mistake,
and was at least half responsible for [REDACTED] situation.

In discussing the case of the individual who also was informed incorrectly that their land
had water access rights, she stated that she believed the other individual was not
offered any resolution from TVA because he never followed up with legal representation
or political intervention. In respect to TVA’s initial stance to not grant [REDACTED]
request for more than one water-use facility, the interviewee stated that TVA changed
its stance based on [REDACTED] persistence, documentation, and decreased property
value.

TVA Acknowledged Mistake and Approved Access

The Cherokee Douglas Watershed Manager also stated that no one employee decided
that TVA was wrong and should negotiate a settlement. She stated that those involved
all believed TVA made a mistake, and a settlement with [REDACTED] was pursued so
that both parties could claim victory and avoid legal proceedings. She also stated that
there was no external political pressure/influence or internal managerial
pressure/influence to negotiate the settlement with [REDACTED].

[REDACTED] Transaction

[REDACTED] Appealed to Elected Officials and Senior TVA Management for
Permission to Build Boat Dock

On October 23, 1992, [REDACTED], [REDACTED] neighbor, wrote to
Congressman John J. Duncan, Jr.,48 regarding the potential purchase of TVA property
adjacent to [REDACTED]. In his letter, he noted that [REDACTED] owns a lot in the
subdivision and would like to build a home there. [REDACTED] was told that TVA
would not sell the property to them nor permit them to build boat docks. [REDACTED]
stated that the property owners stated they were reluctant to construct an expensive
dwelling in the area if they could not utilize the area for boating. [REDACTED]
requested the Congressman’s assistance in obtaining permission for the neighborhood
to build boat docks for their personal use.


48
     We found that Congressman Duncan and Senator Sasser were responding appropriately to constituents who
     contacted their offices. Specifically, there was nothing unusual or inappropriate about how Duncan’s or Sasser’s
     offices handled appeals for help from their constituents.


Inspection 2008-12003                                                                                          Page 38
Office of the Inspector General                                                Inspection Report



In response to [REDACTED] letter, Congressman Duncan wrote to William Willis,
Senior Executive Officer and President, Board Advisory Group, TVA, on November 16,
1992, asking him to review [REDACTED] property situation and forwarding on his letter.
On October 23, 1992, Congressman Duncan received a letter from [REDACTED]
asking for permission to build boat docks for personal use.

On November 16, 1992, John B. Waters, former TVA Board member, responded to
Congressman Duncan regarding his letter on behalf of [REDACTED]. Mr. Waters
advised Congressman Duncan that they had already explained to [REDACTED] that the
land was managed by TVA for public recreation purposes and that construction of
private facilities was not allowed. The letter stated, “We have agreed to meet with her
on site and review the area in question first-hand and discuss the situation with her
personally.”

On September 18, 1993, [REDACTED] wrote to Senator Sasser asking for assistance in
gaining permission to build a dock on TVA property. She also asked about possibly
buying the land the dock would be placed on. On September 21, 1993, Senator Sasser
wrote to TVA Chairmen Crowell asking him to review the matter.

On October 6, 1993, Congressman Duncan wrote to Dr. Charles Buffington, TVA Vice
President of Land Management, discussing [REDACTED] recent request for assistance in
the use of TVA land. Congressman Duncan enclosed a news clipping that [REDACTED]
sent him as well as the letter she wrote about her desire to build a pier shared by three
landowners in her neighborhood. The article was about a couple, [REDACTED], who were
allowed to build a personal dock on other TVA property. Congressman Duncan asked
Dr. Buffington to explain why the [REDACTED] request could be granted when
[REDACTED] request could not.

On October 26, 1993, Craven Crowell responded to Senator Sasser regarding the
[REDACTED] interest in buying or leasing TVA land on Fort Loudoun Reservoir in order
to build a boat dock. Mr. Crowell noted that TVA wished to retain the land for future
public use.

On October 27, 1993, Norman Zigrossi responded to Congressman Duncan’s letter to
Dr. Buffington. Mr. Zigrossi stated, “The public land requested by [REDACTED] is a
portion of a 27-acre lakefront parcel in Blount County, Tennessee. [REDACTED]
previously requested approval for a dock at that location, and we met with her at the site
on December 1, 1992. We explained that this land is managed by TVA for public
recreation and is retained for possible public development. This explanation was
accepted by [REDACTED] at that time, and she sent a letter thanking us for the
meeting.” He went on to explain the land talked about in the news clipping is a
commercial recreation development located on Watts Bar Reservoir, and it was TVA’s
intent that this narrow shoreline strip could be used for private water-use facilities in the
future by the owners of the former TVA land. TVA had sold its land down to a contour
very near the water, leaving only a narrow strip.




Inspection 2008-12003                                                                  Page 39
Office of the Inspector General                                           Inspection Report



[REDACTED] Cited By TVA for Cutting Trees on TVA Property

On February 26, 1998, Todd R. Large, TVA Police, was called to investigate an
anonymous report of tree cutting on TVA property, [REDACTED]. Officer Little and
Officer Large responded to the request to investigate the tract at the address above
owned by [REDACTED]. When they arrived they observed [REDACTED] clearing away
tree cuttings on TVA property and found freshly cut trees on the property. They told
[REDACTED] they had gotten a report that someone was cutting down trees on TVA
property and asked if he had cut any down. [REDACTED] said he had cut down two
trees that were located by the water because it was blocking his view from his house.
The officers informed [REDACTED] that he was not allowed to cut down any trees on
TVA’s property without TVA’s permission. TVA Police filed a Uniform Incident Report
against [REDACTED] to report the vandalism on [REDACTED]. Karen Stewart, TVA
Land Management, had previous discussions with the [REDACTED] about not altering
any TVA property.

On March 25, 1998, TVA wrote a letter to [REDACTED] informing him how they would
like to proceed on the matter of his unauthorized tree cutting on the TVA property
adjoining his lot on Fort Loudoun Reservoir. TVA Police determined that two
persimmons, two eastern red cedars, four black cherries, and three elms have been
removed since 1995. TVA evaluated and valued the 11 trees at $2,200 according to the
approved method by the Council of Tree and Landscape Appraisers. TVA stated they
were willing to settle the matter and take no further action as long as [REDACTED] did
not engage in further unauthorized tree cutting activities on TVA property and paid TVA
the calculated $2,200 by May 1, 1998.

[REDACTED] Paid TVA $2,000 to Settle Tree-Cutting Incident

On May 11, 1998, TVA wrote [REDACTED] to inform him they received his settlement
check for $2,000, a reduced amount, as agreed upon in a May 4, 1998, telephone
conversation with [REDACTED]. To completely close the matter, TVA requested his
signature agreeing to not engage in further unauthorized activities on TVA property. An
adjudication report stated that on May 15, 1998, TVA agreed to dismiss the case
against [REDACTED] if he agreed not to cut any more trees or grass on TVA land.

On August 23, 2001, Congressman Duncan wrote to Janet L. Duffy, TVA Land Use
Representative, concerning the [REDACTED] recent request for assistance in obtaining
the right to mow the property. On September 7, 2001, TVA responded to Congressman
Duncan’s letter regarding the [REDACTED] use of the land. TVA’s letter stated that the
land was for public use and that they were not authorized to mow or cut trees on the
property.

A December 11, 2002, e-mail by a TVA Land Use Representative provided the following
history:




Inspection 2008-12003                                                             Page 40
Office of the Inspector General                                            Inspection Report



•   The [REDACTED] own a lot in a small subdivision behind a large tract of land. In
    1992, they asked for permission from TVA to build a dock and perhaps even buy the
    land. TVA said no.
•   Congressman Duncan and the TVA Board were contacted regarding this matter.
    Letters from both offices went to [REDACTED] explaining that the property was
    designated public recreation and that no private facilities would be approved.

•   The following year the [REDACTED] sent letters to Senator Sasser and continued
    every year following to a TVA representative or elected official.

•   With tips from neighbors, TVA was able to catch them in the act of clearing a large
    area on TVA property behind their home. Soon after this issue was resolved and a
    document was signed that they would not do any cutting or mowing on the property,
    they began to mow the area as it grew up.

On July 23, 2003, Ms. Duffey, TVA Land Use Representative, filed a Violations and
Encroachments form for suspected mowing and clearing that was barred by previous
litigation. On August 6, 2003, TVA Police (Officer Little) spoke with [REDACTED]
concerning [REDACTED] adjacent to her property. Officer Little asked her to quit
mowing the land belonging to TVA. She was told that she could have a prominent
footpath to the water. [REDACTED] told the officer that she was not the only person in
the area using that property, other people mowed and four-wheeled.

An e-mail from Robert G. Farrell, Watershed Team Manager, dated April 1, 2004, stated
that he talked to [REDACTED] relating her call to Mr. Baxter’s office discussing the
Maintain and Gain process. [REDACTED] discussed the concept of a land swap if she
bought property on another reservoir (Watts Bar). Mr. Farrell explained he would
evaluate exchange proposals on a case-by-case basis and assess the potential benefits
to TVA and the public. Mr. Farrell stated he planned to meet with [REDACTED] on-site
to discuss the possible options for enhancing public recreational use. On April 22,
2004, Farrell wrote to [REDACTED] and informed her they had no objection to her
request to place bird feeders on the TVA land. Mr. Farrell told [REDACTED] that if she
had an interest in pursuing a shoreline “maintain and gain” or land exchange proposal,
they could meet with TVA at her convenience to discuss it further.

[REDACTED] Appealed to Board Chairman Bill Baxter Regarding Land Use
Proposal

On August 30, 2004, [REDACTED] wrote to Board Chairman Bill Baxter about her
conversation with Robert Farrell to discuss partnering with TVA’s Watershed Team and
their neighborhood to achieve their goals of making the property a wildlife safe haven.
She mentioned in the letter that they might qualify through a “grandfather” clause as the
area was mowed before 1999. Another undated letter was written from [REDACTED] to
Mr. Baxter asking him for help in approaching Mr. Farrell about the grandfather clause
and their usage of the TVA property.



Inspection 2008-12003                                                              Page 41
Office of the Inspector General                                               Inspection Report



TVA Approved Plan That Included a Public Use Boat Dock

On September 8, 2004, Chairman Baxter handwrote an internal note asking TVA staff if
[REDACTED] would qualify under the grandfather clause. On September 9, 2004,
Mr. Farrell wrote to Mr. Baxter explaining that [REDACTED] property situation did not fit
under the SMP grandfather clause for mowing and vegetation management. He
explained that the land was designated for public recreation and was formerly leased to
Blount County for that purpose. He said the grandfather clause did not apply to that
property because it was not a “residential shoreline.” Mr. Farrell indicated that
[REDACTED] did not have deeded rights for ingress/egress for the construction of
private water-use facilities. He mentioned she could consider a shoreline “maintain and
gain” proposal if she wanted to obtain rights for a private dock.

On September 13, 2004, Mr. Baxter e-mailed Mr. Farrell and stated he was not aware
that [REDACTED] wanted a private dock but that he would be okay with her request to
maintain the property. Director Baxter also stated, “if that’s all she wants, I have a hard
time understanding why we can’t let her do it. I’m not aware of any environmental
reason to let it grow up, are you?” Mr. Farrell replied in an e-mail to other TVA
employees dated September 15, 2004, that Director Baxter, “has been hearing from
[REDACTED] for over a year and he wants us to work out a proposal, get a yes or no,
and get it to a conclusion.”

On September 29, 2004, TVA responded to [REDACTED] inquiry regarding establishing
a vegetation management plan for the land. The response basically was that TVA
would appreciate any effort to increase public use of the land. On November 1, 2004,
[REDACTED] submitted a Land Use Application to [REDACTED] for the use of public
recreation.

On February 25, 2005, the Watershed Team approved a license agreement for
occupancy and use of TVA land permitting implementation, management, and
maintenance of native vegetation plots and wildflower meadows. The agreement also
provided for shoreline stabilization areas as well as permission to construct and
maintain a dock for public use. This transaction did not require Board approval.

[REDACTED]

TVA Approved 26a Permits After Determining Property Had Deeded Access
Rights

[REDACTED] was approved for a 26a permit on July 18, 2005. Prior to the approval,
[REDACTED] had inquired of TVA personnel at a public meeting pertaining to the
update of the Watts Bar Land Management Plan as to whether the property was eligible
for a dock. After TVA review of a map, and discussion of the deed which did provide
ingress/egress rights, [REDACTED] was told that it was eligible. Shortly thereafter,
[REDACTED] applied for and received the 26a permit with an approval date of July 18,
2005.



Inspection 2008-12003                                                                 Page 42
Office of the Inspector General                                               Inspection Report



Later that year, [REDACTED] questioned TVA regarding a different property tract that
was situated upstream of the first property. They intended to subdivide the property into
lots. TVA informed them that they had access. Applications for three 26a permits,
[REDACTED], were submitted and approved on December 21, 2005. An additional 26a
application submitted by [REDACTED] was approved on January 4, 2006.

TVA Discovered Errors in Zoning Boundaries Which Would Restrict Lake Access

In a March 6, 2006, e-mail from a Land Use Specialist, she noted that there was a
situation where the boundaries were incorrectly shown on the Draft Plan Maps. The
effect of the error was to change the property from being eligible to not being eligible for
water access. At this time, one of the docks had been constructed. The property where
the dock had been constructed was where the 750-foot contour touches the tract. The
deed provided for ingress/egress rights below the 750-foot contour for water-use
facilities.

TVA Staff Evaluated Options to Resolve Error

An additional e-mail from Catherine Robinson, Process and Performance Management,
Environmental Stewardship, stated that the Manager, Resource Stewardship, had
requested options on how to handle the situation. The following options were proposed:

•   “Revoke all permits.”

•   “Leave all permits – Zone 7 for the areas where docks are currently permitted, and
    no more except where private property touches the 750…and the team needs to
    define where those areas are.”

•   “Revoke the permits on the left, upstream bank and leave the one on the right,
    descending bank if the private property touches the 750 on the lakeside of the
    culvert.”

The same e-mail stated that, “we hope the owners did not purchase the property based
on being able to have docks.”

A Land Use Representative prepared a summary of the issue which was dated April 12,
2006. The summary noted that there were four options. They were (1) revoke all
permits, (2) leave all permits and change the areas where docks are currently permitted
to Zone 7 and give no more permits except where private property touches the 750,
(3) leave all permits and leave the allocation as a Zone 4 but do not revoke the
five permits, and (4) notify the stakeholder involved that the only permits that would not
be revoked would be ones that abut the 750-foot contour. Each of the options also
included a short pros and cons list. Both options 1 and 4 indicate that there is a
potential suit for damages if the permits were revoked.

In response to the summary dated April 13, 2006, Catherine Robinson stated, “How can
we not ask for removal since we told the Blackberry people No.” Additionally, she

Inspection 2008-12003                                                                 Page 43
Office of the Inspector General                                              Inspection Report



advocated revoking all the permits. She further stated that other dock requests have
been made for the same tract, and “we need to be able to look them in the eye and tell
them a mistake was made and we are trying to correct the error.” Her second choice
was option 4 which would be to revoke all permits that do not abut the 750-foot contour
line. Additionally, a Land Use Representative also advocated option 1 or 4.

A teleconference was held on April 18, 2006, to further discuss the issue. It was
attended by two Watershed Team members, two OGC attorneys, and three Watershed
Team policy advisors. It was noted that OGC attorneys believed there was a concern
that the permits could not be revoked as discussed and that if they did try to revoke the
permits, “it would be a long, hard battle.” It was also noted by Watershed Team policy
advisors that TVA needed to revoke the permits where there are no land rights. The
notes to the teleconference states that the permits issued to [REDACTED] would
probably comply with the 750-foot contour. However, the permits issued to
[REDACTED] would not meet the 750-foot contour requirement and would probably
need to be revoked. The proposed action was to contact the applicants and notify them
that they should stop construction plans until a decision was made.

An e-mail dated June 12, 2006, from a Land Use Representative stated that the team
was:
             …asking that we consider honoring the approval of the
             existing permits, given the fact that these five owners are
             lake front property owners that [sic] live on [land] which has
             outstanding ingress/egress rights. With permit in hand, this
             could be a long, hard battle that we might not even win and
             to what benefit to TVA? We all agree that the interpretation
             is wrong, but our team would like to have this elevated
             internally by us instead of the land owners.

TVA Decided Not To Revoke 26a Permits

The proposal was elevated to the Manager, Resource Stewardship, along with a
recommendation that a Problem Evaluation Report (PER) be initiated to keep the
situation from occurring again. The proposal also noted that the issue was elevated
because they did not have 100 percent consensus among the team. At least one
person concurred with allowing the permits to remain in place for the land abutting the
750-foot contour.

A PER was initiated that stated the permits were issued incorrectly for at least three
lots. It also noted the probable reason was “human error.” TVA proposed defining
guidelines around the process for determining land rights and documenting that
determination back to the customer. They also suggested reviewing the general
conditions of the permits specific to TVA’s ability to revoke.

The permits, however, were not revoked for any of the five lots.




Inspection 2008-12003                                                                Page 44
Office of the Inspector General                                               Inspection Report



                                   CONCLUSIONS

The OIG determined that the Maintain and Gain process is administered in an arbitrary
and inconsistent manner that contributes, in some instances, to the appearance of
preferential treatment. While TVA staff asserts that the Maintain and Gain process is
only a guide and does not constitute hard and fast rules, certain actions by TVA in
processing these transactions give the appearance of preferential treatment. As noted
below, exceptions were made in processing these transactions in virtually every case.
The exceptions that were made ranged from minor deviations in process steps to the
granting of access without requiring any request for Maintain and Gain.

We noted these transactions have certain characteristics that substantially increase the
reputational risks to TVA. For example, some of the applicants in these cases tended to
be fairly affluent and influential individuals with the financial means to pursue a long and
arduous process that requires persistence and substantial financial investment.
Additionally, the applicants frequently solicit support from other influential people
including congressmen, senators, and TVA customers. We found instances where the
applicants frequently bypassed staff and made direct appeals to the Board of Directors
and other senior managers.

In conducting our review, we documented deliberations by TVA staff where they voiced
their concerns about the appearance that TVA was “bending the rules.” In the Perry
case, the TVA Board package included a statement that Perry probably wouldn’t have
been considered for a Maintain and Gain transaction were it not for his position as a
“general manager of a TVA distributor.” The staff recognized that TVA could be
criticized based on the inconsistent actions taken in these transactions. The OIG
confirmed that TVA’s resolution of these transactions was inconsistent giving rise to the
appearance of preferential treatment which significantly increased TVA’s reputational
risk. Obviously, the transactions discussed in this report involving (1) a United States
Congressman sitting on a TVA oversight committee, (2) a manager of a TVA power
distributor, and (3) the Chairman of the TVA Board of Directors increase the risk level
both for the applicant and for TVA. Any slight deviation in how high profile applications
like these are handled raises the likelihood of a claim of preferential treatment.

As discussed above, two of the transactions that we examined were approved based on
the recognition that erroneous information had been provided to the property owner by
TVA. However, we found internal staff deliberations that indicated that in their opinion
erroneous information provided to an applicant by TVA should not be the basis for
granting water access rights. TVA staff recognized that the water access decisions
were being applied in an inconsistent manner in this regard, particularly in the case of
Blackberry representatives who were provided erroneous information but were still
required to traverse the Maintain and Gain course.




Inspection 2008-12003                                                                 Page 45
Office of the Inspector General                                             Inspection Report



CONCLUSION 1

CERTAIN ACTIONS BY TVA AND OTHERS CREATED AN APPEARANCE OF
PREFERENTIAL TREATMENT THEREBY INCREASING TVA’S REPUTATIONAL
RISK

Based upon an exhaustive review of the TVA Maintain and Gain program, we believe
that certain actions by TVA employees in at least five transactions created the
appearance of preferential treatment. TVA employees working on the Maintain and
Gain transactions held the applicants to certain standards in an apparent good faith
effort to not show partiality based on the status of the applicants. However, the
inconsistent treatment of the applicants led to actions and decisions by TVA that could
be considered preferential. Our conclusions related to each of the transactions included
in this report are discussed below.

Blackberry Conclusions

The OIG scrutinized hundreds of documents and interviewed all relevant witnesses in an
effort to find some evidence of preferential treatment by TVA for Congressman Shuler.

Despite the fact that there is no evidence that Shuler used his position as a United
States Congressman to pressure TVA to give Blackberry water access on this lake front
project, the unfortunate way that this was handled resulted in reputational harm both to
Congressman Shuler and to TVA. It is unlikely that the casual observer will ever believe
that a United States Congressman couldn’t get a “sweetheart deal” from TVA. This
review, however, shows that the TVA employees working on this project labored in good
faith to hold Blackberry to the same standards as everyone else. In fact, it appears that
Blackberry was forced to endure the Maintain and Gain gauntlet while others were
simply told that they could have their waterfront access. This is despite the fact that a
United States Congressman has considerable influence and that Shuler could have
easily “thrown his weight around” had he chosen to do so.

Unfortunately, since there was no protocol to track how this was handled and since
there was no contemporaneous and independent review of this transaction, the
appearance created is the typical “good ole boy” politics. In the public domain, the facts
are not likely to get in the way of a good story.

The evidence shows that TVA took steps to ensure that the Maintain and Gain process
was generally followed including: (1) requiring Blackberry to file for a Maintain and Gain
even though TVA had misled them initially by informing Blackberry investors that they
had lake access; (2) the Watershed Team at TVA rejected Blackberry’s application
twice all the while knowing that Shuler was a partner and was a sitting United States
Congressman; and (3) Blackberry’s application was approved only after Blackberry
made concessions that cost them time and money.




Inspection 2008-12003                                                               Page 46
Office of the Inspector General                                            Inspection Report



However, we conclude that the fact that Congressman Shuler is a part owner of
Blackberry and sat in a position of authority over the very agency from which Blackberry
was seeking a permit to build a boat dock created an inherent conflict of interest that
gave rise to the appearance of preferential treatment. This demonstrates how even
mistaken impressions under these circumstances tend to subvert the normal process.

TVA employees contributed to the appearance of preferential treatment by:
(1) bypassing the standard committee review which was intended to provide another
layer of scrutiny; and (2) bringing in a high-level TVA executive as ombudsman to
negotiate with Blackberry representatives which created the impression with lower-level
employees that TVA executives wanted the Blackberry application granted. TVA
management apparently had the laudable intent of keeping communications on
Blackberry between the developers (represented by Rudd) and one official in TVA. This
was because TVA recognized the conflict of interest problem and sought to avoid
conversations between Congressman Shuler and the TVA employees working directly
on the Maintain and Gain.

One distinction between the Blackberry Cove transaction and the Perry transaction is
the difference in the perspectives of the employees on the Watershed Team who
worked on the Blackberry Cove matter as opposed to the employees on the Watershed
Team who worked on the Perry matter. As we explain in the Perry conclusion section to
follow, at least some of the Watershed Team members on the Perry matter were left
with the belief that TVA management had bent the rules in Perry’s case for political
reasons. That conclusion may not in fact be justified, but it nevertheless exists. On the
other hand, the Watershed Team members in the Blackberry Cove matter believed that
they did the right thing, and granting the permit in that case was based on nonpolitical
considerations. The OIG was unable to find a single witness who said that they felt any
political pressure to grant Shuler water access. How various Watershed Team
members felt about these transactions is certainly not dispositive of the issue but does
influence the effectiveness of the Maintain and Gain process.

Perry Conclusions

As noted above, Charles Perry was the manager of a TVA power distributor which is a
TVA customer. This case presented a known conflict of interest. Perry’s position gave
him the apparent power to harm TVA or to favor TVA. While in actuality Perry may not
have been in a position to act independently of the utility he managed, that is a
distinction that was apparently lost on the TVA staff handling Perry’s transaction. His
request for something of economic value (water access) from TVA created the conflict
of interest. Some protocol established by TVA that would give the public assurance that
Perry was not given water access simply because of his position was desperately
needed. Instead, TVA elected to do this in the shadows apparently hoping that the
transaction would never be exposed.

In fairness to the TVA Watershed Team handling Perry’s transaction, they attempted in
good faith to hold Perry to certain standards. For example, they required Perry to incur
the cost of purchasing additional property to exchange for his water access. They also

Inspection 2008-12003                                                              Page 47
Office of the Inspector General                                                Inspection Report



stood firm on requiring Perry to pay steep administrative costs of over $22,000. Finally,
the TVA staff seemed to genuinely care about there being some public benefit achieved
after the conclusion of this process.

Unfortunately, in the end, at least some of the TVA Watershed Team members were left
with the impression that TVA management believed that “bending the rules” was
necessary in this case to avoid adverse repercussions from Perry. We view this as
serious collateral damage as the “tone at the top” was compromised and signaled to
lower level TVA staff that preferential treatment would be shown if it suited to TVA
management’s purposes. No effort was made to explain to the Watershed Team the
decision to grant Perry his permit that might have avoided this lingering doubt about
TVA management’s motives, although as we explain in this report there was at least
some basis for granting Perry’s application.

Unfortunately, the appearance of preferential treatment was created by: (1) failing to
give the public notice of this transaction for fear of creating trouble for TVA, (2) approving
a lot-by-lot transaction which is not generally allowed by the Maintain and Gain program,
(3) caving in to Perry after directing Perry to remove his illegal dock, and
(4) circumventing legitimate public benefit concerns raised by the TWRA.

We also note that TVA could have done for Perry what they did for others and simply
bypassed the Maintain and Gain process altogether and given Perry water access. The
risk to TVA in doing so would have been the absence of some semblance of a process
with the accompanying documentation to suggest that Perry had been required to
submit to the same process as everyone else. Unfortunately, the lapses in Perry’s
Maintain and Gain process listed above provide little comfort that fairness was a part of
this transaction. The lack of transparency by TVA in handling this transaction
contributes to the conclusion of TVA staffers found in the TVA Board package entitled
“Board Questions” that TVA would not have considered a Maintain and Gain permit for
Perry except for Perry’s “position as a general manager of a TVA distributor.”
(See Board Questions in Appendix J.)

Taken as a whole, these facts support the conclusion that, at a minimum, TVA created
the appearance of preferential treatment.

Sansom Conclusions

Since Sansom is the current TVA Board Chairman, we scrutinized the details of his
Maintain and Gain transaction closely. In assessing this transaction, it is important to
note that the initial request in 2000 from Knox County recognized that Sansom would
also be pursuing a Maintain and Gain request. Mr. Sansom’s Maintain and Gain
request was approved in advance at the March 16, 2004, TVA Board meeting. Sansom
did not become a Board member until 2006. We note that TVA completed all the
required steps in processing the Knox County request which were required for
Sansom’s Maintain and Gain request before Sansom became a Board member.
Therefore, Chairman Sansom did not have a conflict of interest with respect to the
Maintain and Gain application, and there is no evidence that he was shown any


Inspection 2008-12003                                                                  Page 48
Office of the Inspector General                                              Inspection Report



preferential treatment by TVA. Likewise, we found no evidence that Chairman Sansom
attempted in any way to use his influence in this matter either before he became a
Board member or after he became a Board member.

We note, however, that the fact that a TVA Board member has a personal matter before
the agency that lingers on like this one creates the opportunity for criticism that could
have been avoided. TVA should have recognized that even though the decision to
grant the Chairman water access occurred before he became a Board member, the fact
that some of the paperwork for Sansom’s Maintain and Gain would not be completed
until after Sansom came on the Board could create an appearance problem. Although
before this OIG report there was no publicity about this matter and it was not likely to be
discovered, the better approach might have been for TVA to issue a public statement
outlining the facts and explaining what had been done. This is another example of
where choosing transparency as a public federal agency would have served TVA’s
interests better.

Water Access Granted Without Maintain and Gain

In a separate class of cases, TVA created the appearance of preferential treatment by
simply granting water access rights outside of the Maintain and Gain program.
Specifically, after appeals to the then Board Chairman Bill Baxter and/or management,
landowners were granted water access rights without being required to submit a
Maintain and Gain proposal. These cases may have been decided correctly based on
their individual facts, but they were handled differently than similar cases. In two of
these cases, access was approved after TVA acknowledged that erroneous information
had been previously provided to the landowners.

As we have stated, it may be that the decisions to grant water access rights were
appropriate under the specific facts presented to Chairman Baxter and/or TVA
management at that time. It is unlikely that anyone at TVA knew how all of these
transactions were being handled resulting in an ad hoc approach with predictable
results. For example, Chairman Baxter could not have guessed that TVA would change
course after his departure and require landowners to submit to the Maintain and Gain
process despite being misled by TVA about whether their property had water access or
not. Even if TVA had studiously tracked each of these transactions and had made
distinctions based on clear rules, the public would likely be suspicious when one
landowner is granted water access and another landowner is denied water access.
TVA is not required to attempt to extinguish every conceivable appearance of
preferential treatment, but this process lends itself to criticism that could be avoided.
This illustrates the importance of a transparent process that can withstand public
scrutiny.




Inspection 2008-12003                                                                Page 49
Office of the Inspector General                                                Inspection Report



CONCLUSION 2

TVA DID NOT HAVE A CLEARLY DEFINED PROTOCOL TO ADDRESS THE
KNOWN CONFLICTS OF INTEREST BY SHULER AND PERRY

Our review revealed that while TVA management clearly recognized that a conflict of
interest existed in these transactions, no protocol existed to document that no
preferential treatment was being shown. Trying to establish after the fact that someone
like Congressman Shuler or Charles Perry did not receive preferential treatment is
much harder than having a process that provides an independent contemporaneous
review. These cases demand a level of transparency that may seem overly
burdensome until the costs of handling them in the current manner are considered.
Given what appears to be obvious conflicts of interest in these two cases, we pressed
certain TVA employees about why no protocol was established to provide transparency
and an independent review. The consensus seemed to be that there was the belief that
despite the status of the applicants and despite the degree of the conflicts of interests,
TVA employees could apply the same rules to everyone without partiality.

From TVA’s perspective, the fact that an applicant for a Maintain and Gain permit has a
conflict of interest in pressing TVA for the permit is not dispositive. Conflicts of interest
abound in the world of business and politics, and the real question is how those conflicts
of interest are managed. Obviously, if the conflict is never recognized, it is not likely to
be managed appropriately. Only when a conflict of interest is properly identified is there
hope that it can be properly handled. A whole body of law has risen up just to address
the myriad conflicts of interest that confront, for example, employees of the federal
government. TVA employees are expected to abide by strict rules of conduct designed
to prevent them from using their position as a federal employee for personal gain. TVA
employees, like all federal employees, are charged with the duty of addressing ethics
issues to their agency’s designated agency ethics official (the “DAEO”). For TVA, that
person was Ralph Rodgers in the Office of General Counsel. Most TVA employees are
required to take an online ethics training course each year that addresses, among other
issues, conflicts of interest. TVA employees have been disciplined over the years for
violating government ethics rules including for using their position with TVA to further
their own personal gain. (See “General principles,” 5 CFR 2635.101(b)(7), “Employees
shall not use public office for private gain.”; see also “Disqualifying financial interests,”
5 CFR 2635.402; and “Use of public office for private gain,” 5 CFR 2635.702.) Federal
employees are well aware of the fundamental principle that they cannot use their
position in government to advance their own financial interests. (See Office of
Government Ethics “2007 Conflict of Interest Prosecution Survey,” released
November 6, 2008. See Case 12, where a TVA manager was convicted in federal
court on a felony offense stemming from his interest.)

If it is reasonable to require federal employees to recognize their own conflicts of
interest, then it is reasonable to require a federal agency to report suspected conflicts
such as the ones that occurred in this case. The same logic that makes self-reporting
for employees critical applies to federal agencies. In both situations, part of the
rationale is to avoid the reputational harm that occurs when a transaction becomes

Inspection 2008-12003                                                                  Page 50
Office of the Inspector General                                               Inspection Report



suspect due to conflicts that give the appearance of impropriety. This imposes no
unreasonable duty on a federal agency since in many cases the conflict of interest is
obvious and well known. For example, the conflict of interest was readily apparent in
both the Perry and the Shuler cases. Charles Perry’s position as the manager of a
utility that gave TVA approximately $25 million of revenue per year placed him in at
least the apparent position to inflict economic harm on TVA if TVA did not grant his
application for a Maintain and Gain permit for water access on his private property. Our
review found that TVA employees were aware of Perry’s position, and his position was
perceived to be one that could influence his utility on matters like whether to continue to
use TVA as a wholesale supplier of electricity or whether to “give notice” to TVA that the
contract with TVA would not be renewed.

Similarly, Congressman Shuler’s position as a member of Congress sitting on a
committee with oversight responsibilities for TVA raised the specter of preferential
treatment when he applied for his permit from TVA on a project with millions of his own
personal money on the line. All of these facts were well known to TVA management
without any real need for further investigation to determine if a conflict of interest
existed. In fact, Congressman Shuler fully disclosed his interest in Blackberry in his
federal financial disclosure form. That, however, did little to protect either him or TVA
from the appearance of preferential treatment evidenced in this case.

Beyond the known and obvious conflicts of interest that pose a risk of reputational harm
to a federal agency, there are the conflicts that a federal agency could discover with the
exercise of due diligence. For example, due diligence would seem to require that when
any elected official has personal business before a federal agency that a preliminary
review be done to consider whether the elected official’s position affords him or her the
real or apparent ability to apply leverage to pressure the federal agency to rule favorably
on his or her personal financial interest. Likewise, if anyone like a TVA distributor who
is in a position to grant or withhold an economic benefit to TVA has a matter involving
their own personal financial interests before TVA, then the prospect of a conflict of
interest bears investigating. A more comprehensive index of possible conflicts that
could present themselves can be developed with the goal of protecting the integrity of
the federal agency, the agency’s employees, and the conflicted party.
Given the high risk of reputational harm for a federal agency that fails to exercise due
diligence in identifying conflicts of interest that if publicly revealed would suggest
preferential treatment for the conflicted party and an appearance of impropriety for all
involved, it is essential that the federal agency have an established protocol for
identifying conflicts of interest.

The fact that TVA has never had such a protocol to either identify conflicts of interest or
to manage those conflicts should be judged in context. Our rudimentary survey of other
federal agencies did not reveal any federal agency that has a protocol to identify and to
manage conflicts of interest. This appears to be a gap in both law and agency
procedure. Our belief is that most federal agencies handle these conflicts like TVA has
done. That method is to treat the problem as solely a conflict of interest for the other
party (politician, major customer, or agency official) rather than a reputational risk issue


Inspection 2008-12003                                                                 Page 51
Office of the Inspector General                                              Inspection Report



for the agency. As with TVA, the belief is that the agency can treat the conflicted party
equally without preferential treatment. As demonstrated in these cases, however, the
appearance of impropriety is almost guaranteed once the conflicted party’s financial
interest is publicly revealed.

Our recommendations to address this problem appear at the conclusion of this report.

CONCLUSION 3

THE MAINTAIN AND GAIN PROGRAM HAS BEEN ADMINISTERED IN AN
ARBITRARY MANNER AND NEEDS SUBSTANTIAL IMPROVEMENTS

TVA Employees Selectively Applied Maintain and Gain “Guidelines” Resulting in
Frequent Exceptions

We identified ten key steps required for processing a Maintain and Gain transaction.
We evaluated each transaction to determine whether any of the key elements were not
followed. In summary, we found no exceptions were made in three of the following key
requirements: (1) $5,000 application fee was paid; (2) exchanges were on the same
reservoir; and (3) access rights given up were equal to or greater than the rights
received.

However, we found that exceptions were made on various transactions in seven of the
key requirements with the most frequent exceptions made for the watershed and
management team reviews for public benefit. Specifically:

•   Even though Blackberry was also provided erroneous information at the time of
    purchase, Blackberry was required to go through the Maintain and Gain process.
    However, in the Blackberry transaction, TVA senior management bypassed the
    management team assessments for public benefit on the second application.

•   In the Charles Perry transaction, we found the following exceptions: (1) management
    made the decision to allow a lot-by-lot exchange when the program did not generally
    permit these types of transfers; (2) management decided to forgo a public notification
    due to the “sensitivity” of Charles Perry’s position as a manager of a TVA power
    distributor (See Appendix K for RS Guidelines – 16.5.4.52 Board Action Checklist);
    and (3) this transaction was approved despite concerns raised by both the U.S. Fish
    and Wildlife Service and other state wildlife or natural resources agencies. Both
    agencies stated “little public or resource value would be gained in the exchange.”
    (See Appendix E for Allsbrooks letter to Perry). This was expressed in multiple
    denials of Mr. Perry’s proposals and was also included in the package the Board
    ultimately approved (See Appendix I for Issue Briefing Paper – Justification for
    Sequential Approval).




Inspection 2008-12003                                                                Page 52
Office of the Inspector General                                                           Inspection Report



On January 26, 2001, Bridgette Ellis, Vice President for Resource Stewardship, wrote a
memorandum announcing the initiation of a Maintain and Gain review committee to
improve TVA’s response to Maintain and Gain applications.49 She summarizes the
need for improving the application process as follows:

                  Since the initial implementation of Shoreline Management
                  Initiative in November of 1999, the number of Maintain and
                  Gain (M&G) proposals has increased substantially. Each of
                  these proposals is unique. Several have been controversial;
                  almost all are relatively complex with respect to the level of
                  evaluation required, and the interpretation of the M&G policy.
                  Because of their uniqueness, evaluations are costly to TVA
                  and the customer in time and resources. In some cases,
                  these proposals have been in process for six months or
                  more before determination that they did not meet M&G
                  criteria. And during this time, the customer has no
                  assurance of how TVA will ultimately judge the proposal.50

Bridgette Ellis set out in her memorandum what should be included in a Maintain and
Gain application and noted the following requirements:

•    A complete land use request including a completed and signed application.

•    A $5,000 fee, description of both properties (including acreage and linear feet of
     shoreline involved at summer pool elevation), [and so on] plans for development of
     the potential residential shoreline, and maps of both tracts. There should be
     information sufficient for the Watershed Team to prepare an Issue Briefing and for
     the Review Committee to determine if the proposal meets minimum Maintain and
     Gain criteria.51




49
   Memorandum by Bridgette Ellis, Maintain and Gain Review Committee, January 26, 2001.
50
   Id., page 1.
51
   Id., page 2.


Inspection 2008-12003                                                                             Page 53
Office of the Inspector General                                                                  Inspection Report



Exceptions Granted

Figure 2: Compliance Test Results Pertaining to Key Maintain and Gain Process Steps

                  Key Element Reviewed                                    Exceptions Identified
               Completed Land Use Application                  •   Chickamauga did not have documentation of
                                                                   Land Use Application.
                           $5,000 fee                          No exceptions noted.
         All access rights considered are on the same          No exceptions noted.
                             reservoir
       Applicants’ access rights given up is greater than      No exceptions noted.
                    or equal to those received
       Worksheet Completed with the Watershed Team's           •   The Blackberry transaction had senior
        opinion of the transaction's public benefit based          management approval to bypass this step.
               on a variety of unpublished factors             •   The Chickamauga transaction had two
                                                                   management reviews as opposed to the
                                                                   Watershed Team review.
                                                               •   The McLeroy - Watts Bar transaction noted the
                                                                   review in the Issue Briefing Paper submitted
                                                                   with Board package only.
                                                               •   Riverbrook - Fort Loudoun had no
                                                                   documentation of the team review.
                                                               •   Guntersville - Team opinion was identified, but
                                                                   there was no worksheet completed.
        Coordination with U.S. Fish and Wildlife Service       •   The Blackberry transaction had no
        (USFWS) and state wildlife or natural resources            documentation of a response or consultation.
                            agency                             •   The Guntersville transaction had no
                                                                   documentation of a response or consultation.
        Management Team review of the transaction to           •   Melton Hill showed the Management Team
       determine if the proposal is in the public's interest       Review was scheduled.
         from a Valley-wide perspective. However, no           •   The Blackberry transaction had senior
        criteria is explicitly outlined in the process steps       management approval to bypass this step.
                                                               •   The McLeroy - Watts Bar transaction noted the
                                                                   review in the Issue Briefing Paper only.
                                                               •   Riverbrook - Fort Loudoun and Perry - Kentucky
                                                                   had no documentation of the review.
                        Public Notification                    •   Chatuge appeared to have a public notice for
                                                                   the land transaction only that does not mention
                                                                   the Maintain and Gain transaction.
                                                               •   Management decision to forgo the Public Notice
                                                                   for Perry - Kentucky.
                     Environmental Review                      •   Chatuge did not conduct a separate EA from
                                                                   the land transaction.
                                                               •   Guntersville EA was mentioned as being
                                                                   completed, but no documentation was included.
                         Appraisal/CMA                         •   Chatuge did not appear to have conducted an
                                                                   up-to-date appraisal for the Maintain and Gain
                                                                   transaction.




Inspection 2008-12003                                                                                     Page 54
Office of the Inspector General                                             Inspection Report



Process Improvements Needed

Our review of the nine Maintain and Gain transactions and other related transactions
identified improvement opportunities related to: (1) providing erroneous information to
applicants and (2) a lack of criteria for evaluating public benefit.

TVA Provided Erroneous Information to Applicants

We noted in our review that in certain instances TVA provided erroneous information
upon which the applicants relied. While it is certainly understandable that in an
organization as large as TVA mistakes will be made, a representation that a landowner
has water access on a TVA lake is difficult to take back. TVA employees who are likely
to be asked about this should be trained to defer questions to those within TVA who
have the authority to bind the agency and who have the requisite training to give the
correct answer. These cases demonstrate the reputational harm done to TVA by ill
advised statements from employees who were not the best sources of information.

TVA Has No Clear Criteria for Evaluating Public Benefit

One of the key steps in the Maintain and Gain process is an evaluation by the
Watershed Team that the transaction constitutes a “public benefit.” In evaluating the
public benefit of a transaction, TVA considers ecological, cultural, recreational, scenic,
and public benefits of the property proposed for the exchange with similar public and
resource benefits of the TVA land over which access rights are requested. The criterion
used in this determination is not generally known and results in additional costs to the
applicant. For example, the initial Maintain and Gain proposal submitted by Blackberry
was rejected, in part, due to a determination that the exchange property had no “public
benefit” due to shoreline erosion. Blackberry agreed to pay TVA an additional $15,000
to resolve this issue. This may have been an acceptable arrangement, but it appears
arbitrary and an option not likely initially contemplated by either TVA or Blackberry. It
could appear to the casual observer that TVA merely leveraged $15,000 out of
Blackberry because they could. If “public benefit” remains whatever TVA wants it to be,
this will always be a source of suspicion.

In another instance, the Charles Perry application was rejected due to the determination
by the U.S. Fish and Wildlife Service that no public benefit would be gained. These
concerns were ignored by TVA, and the application was ultimately approved which
undermined any suggestion that input from the U.S. Fish and Wildlife Service was part
of the criteria or in any way meaningful.




Inspection 2008-12003                                                               Page 55
Office of the Inspector General                                            Inspection Report



CONCLUSION 4

TVA’S FAILURE TO RETAIN DOCUMENTATION FOR APPLICATIONS WHICH ARE
WITHDRAWN OR REJECTED CREATES DOUBT ABOUT THE FAIRNESS OF THE
MAINTAIN AND GAIN PROCESS

The current Maintain and Gain guidelines to process Maintain and Gain transactions do
not specifically require any documentation be maintained either in hard copy files or in
the Integrated Information System/ALIS (Automated Land Information System). Of the
transactions reviewed, two had documentation maintained in the updated Integrated
Information System/ALIS. The other transactions were located in the ALIS system used
previously or in hard copy format.

This has the potential for great mischief as we have reported previously in this
inspection. Accountability and transparency require some documentation of why TVA
rejects some applications and accepts others. Given the substantial value access to
TVA lakes bestows, there should not be room for speculation about this important
process that presently has a checkered past.

CONCLUSION 5

THE MAINTAIN AND GAIN PROGRAM MAY UNDERMINE THE INTENT OF THE
TVA BOARD’S 2006 LAND POLICY

On April 21, 1999, the TVA Board of Directors implemented a new SMP which took
effect on November 1, 1999. The SMI assessed TVA’s existing reservoir residential
shoreline permitting practices to establish a policy that better protects shoreline and
aquatic resources, allows reasonable access to the water for adjacent residents, and
improves management of public land along the shoreline. According to the Executive
Vice President and General Counsel, “When the Board was considering adopting its
Land Policy in 2006, it reviewed the earlier Board-approved SMP (including its Maintain
and Gain component). The Board, in effect, reinforced that policy by specifically
providing in the TVA Land Policy that it adopted that “TVA shall consider changing a
land use designation outside of the normal planning process only . . . to implement
TVA’s Shoreline Management Policy” (emphasis supplied).” The Maintain and Gain
component of the SMP was deemed consistent with the 2006 Land Policy adopted by
the Board.

While, “one element of the SMP is a strategy that will maintain and potentially gain
public reservoir shoreline property (normal pool shoreline), while limiting the maximum
amount of shoreline developed for residential access to the amount of shoreline where
residential access rights currently exist,” the Maintain and Gain transactions have the
appearance of circumventing the Land Policy by permitting residential development on
the lake that may otherwise be restricted. Specifically, the purpose of:




Inspection 2008-12003                                                              Page 56
Office of the Inspector General                                                Inspection Report



•   The Blackberry transaction was a community dock.

•   The Riverbrook Shoreline Owners Association transaction included 14 private docks.

•   The Scott Roberts, Harold Daniels, Ken Herrick transaction was two dock
    encroachments and a new dock for subdivision lot owners.

•   The Stumac, Inc., transaction was development.

•   The Chris Stevens, John Rankin, Marsha and Norman Sheldon transaction involved
    three residential docks.

While the SMP allows TVA to consider proposals to “give up” access rights at one
location to “get” these rights at another location when the action would result in no net
loss, or preferably, a net gain of public shoreline, the entities had a developmental
interest in the properties already owned. Therefore, the Maintain and Gain process
provided an avenue for developmental actions that would have otherwise been
restricted.

RECOMMENDATIONS

In consultation with the TVA Board of Directors, TVA management should consider:

y Eliminating the Maintain and Gain program and only consider changes to water
  access rights during the periodic update of the SMP.

y Alternatively, if the Maintain and Gain program is retained TVA should:

        Evaluate the extent it may conflict with the Land Policy regarding residential
         development;

        Strengthen procedural guidelines to reduce the inconsistency in how matters are
         resolved; and

        Implement procedures to ensure adequate documentation of rejected and
         withdrawn applicants is maintained.

y Establishing a clearly defined protocol which creates a procedure for identifying
  inherent conflicts of interest by those applying for any TVA benefit. We recommend
  that the protocol include the following elements: (1) a definition of inherent conflicts
  of interest broad enough to capture the majority of cases that involve conflicted
  parties soliciting something of value from TVA; (2) a training program for TVA
  employees to enable them to recognize and report conflicts; (3) a process to refer
  these cases to the Ethics and Compliance Officer, the Designated Agency Ethics
  Officer (DAEO) and to the OIG to track, review, and report on whether any
  preferential treatment occurred; and (4) a notice provision to any conflicted party


Inspection 2008-12003                                                                  Page 57
Office of the Inspector General                                               Inspection Report



    applying for a TVA benefit advising them that their request or application will be the
    subject of a formal review and public report.

Management’s Response – The CEO provided comments on a draft of this report
and agreed to implement our recommendations. Specifically, in response to our
recommendations, management plans to (1) recommend to the TVA Board that Maintain
and Gain program be terminated; (2) incorporate policy and process concerns addressed
in the report in the design of any future water access rights programs that would be
recommended to the Board, and if such a future program is needed, recommend any
future Maintain and Gain activities be made public early and be subject to TVA Board
approval to add public notice and transparency to the process; and (3) develop, in
coordination with the Audit, Governance, and Ethics Committee of the TVA Board, a
policy that will provide a means to identify the potential of actual or apparent conflicts of
interest or the appearance of exertion of undue influence on the part of persons applying
for a TVA benefit.

(The complete text of the comments provided by the CEO is provided in Appendix L.

Auditor’s Comments – We concur with TVA management’s actions or planned actions.




Inspection 2008-12003                                                                 Page 58
APPENDIX A
 Page 1 of 2
APPENDIX A
 Page 2 of 2
APPENDIX B
 Page 1 of 4
APPENDIX B
 Page 2 of 4
APPENDIX B
 Page 3 of 4
APPENDIX B
 Page 4 of 4
APPENDIX C
 Page 1 of 1
APPENDIX D
 Page 1 of 2
APPENDIX D
 Page 2 of 2
APPENDIX E
 Page 1 of 2
APPENDIX E
 Page 2 of 2
APPENDIX F
 Page 1 of 1
APPENDIX G
 Page 1 of 1
APPENDIX H
 Page 1 of 1
APPENDIX I
 Page 1 of 2
APPENDIX I
 Page 2 of 2
APPENDIX J
 Page 1 of 3
APPENDIX J
 Page 2 of 3
APPENDIX J
 Page 3 of 3
APPENDIX K
 Page 1 of 2
APPENDIX K
 Page 2 of 2
APPENDIX L
 Page 1 of 2
APPENDIX L
 Page 2 of 2
